No. ______
In the

Supreme Court of the United States
__________________
PFIZER, INC. AND GREENSTONE LLC,
Petitioners,
v.
SUPERIOR COURT OF CALIFORNIA FOR THE
COUNTY OF LOS ANGELES, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
California Court of Appeal

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
SHEILA L. BIRNBAUM
MARK S. CHEFFO
RACHEL B. PASSARETTI-WU
LINCOLN DAVIS WILSON
DECHERT LLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

Counsel for Petitioners
August 28, 2019

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

QUESTION PRESENTED
This Petition concerns the California state courts’
undisputed lack of personal jurisdiction over products
liability claims filed against Petitioners by more than
3,600 non-resident Plaintiffs. This Court’s decision in
Bristol-Myers Squibb v. Superior Court, 137 S. Ct. 1773
(2017), held that due process forbids the California
courts from exercising personal jurisdiction over such
claims. Yet, rather than applying Bristol-Myers, the
California courts forged a path around it, ruling that
Petitioners had forfeited their admittedly meritorious
defense.
Purporting to apply federal law, the
California courts crafted a forfeiture rule contrary to
this Court’s precedents and all controlling law in the
Courts of Appeals: that Petitioners forfeited their right
to contest personal jurisdiction, despite having timely
raised the challenge, because they did not file a
personal jurisdiction motion simultaneous with their
attempts to establish subject matter jurisdiction in
federal court.
The question presented is whether, under federal
law, a defendant’s efforts to establish federal subject
matter jurisdiction can result in forfeiture of an
otherwise fully preserved challenge to personal
jurisdiction.

ii
PARTIES TO THE PROCEEDING
Petitioners Pfizer Inc. and Greenstone LLC
(collectively, “Pfizer”) were defendants in the trial court
and petitioners before the California Court of Appeal
and the Supreme Court of California.
Respondent Superior Court of California, County of
Los Angeles, was the respondent in the California
Court of Appeal and the Supreme Court of California.
The 3,623 real parties in interest (set forth by name
in the Addendum) were plaintiffs in the trial court and
real parties in interest before the California Court of
Appeal and the Supreme Court of California.

iii
CORPORATE DISCLOSURE STATEMENT
Pfizer Inc. is a publicly traded company. No
publicly held corporation owns 10% or more of its stock.
Greenstone LLC is a wholly owned subsidiary of
Pfizer Inc., a publicly traded company.

iv
RELATED PROCEEDINGS
A petition for writ of certiorari involving the same
cases at issue in this Petition is pending before this
Court in Pfizer Inc. v. Adamyan, No. 18-1578. In the
Adamyan petition, Pfizer seeks review of a decision of
the U.S. Court of Appeals for the Ninth Circuit
concerning the existence of federal subject matter
jurisdiction in these cases.

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL PROVISIONS INVOLVED . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. The California Lipitor Litigation . . . . . . . . . . 5
B. Proceedings In Federal Court . . . . . . . . . . . . . 6
C. Proceedings After Remand . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE PETITION . . . 10
I. Review Is Necessary To Bring The California
Courts In Line With Federal Law And To
Enforce Bristol-Myers. . . . . . . . . . . . . . . . . . . . . 12
II. The California Courts’ Decisions Squarely
Conflict With The Precedents Of This Court And
The Courts Of Appeals. . . . . . . . . . . . . . . . . . . . 14

vi
A. Federal Precedents Unequivocally Reject the
Notion that Litigating Subject Matter
Jurisdiction Forfeits Personal Jurisdiction. . 15
B. The California Courts’ Rulings Contradict
This Court’s Precedents On The Relationship
Between Subject Matter and Personal
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
ADDENDUM - List of Parties . . . . . . . . . . . . . . . . A-1
APPENDIX
Appendix A Order in the Court of Appeal of the
State of California, Second Appellate
District, Division Five, B296917
(May 13, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order on Defendants’
Motion to Quash Service of Summons
with Regard to the Claims of NonCalifornia Plaintiffs for Lack of
Personal Jurisdiction or to Dismiss
the Claims of Non-California Plaintiffs
on Grounds of Forum non Conveniens
in the Superior Court of the State of
California for the County of Los
Angeles, Case No. JCCP 4761, BC
536940
(March 15, 2019) . . . . . . . . . . . . . . App. 3

vii
Appendix C Order Denying Petition for Review in
the Supreme Court of California,
S255942
(July 31, 2019). . . . . . . . . . . . . . . App. 20
Appendix D Defendants’ Reply in Further Support
of Their Omnibus Motion for
Summary Judgment in the United
States District Court for the District of
South Carolina, Charleston Division,
MDL No. 2:14-mn-02502-RMG
(August 12, 2016) . . . . . . . . . . . . App. 21
Appendix E Reporter’s Transcript of Status
Conference in the United States
District Court Central District of
California, Western Division, Case No.
8:17-mc-00005-CJC-JPR
(February 1, 2017) . . . . . . . . . . . App. 55
Appendix F Petition for Writ of Mandate;
Memorandum of Points and
Authorities in the Court of Appeal of
the State of California, Second
Appellate District, Division Five,
B296917
(April 12, 2019) . . . . . . . . . . . . . . App. 68

viii
TABLE OF AUTHORITIES
CASES
BNSF Ry. Co. v. Tyrrell,
137 S. Ct. 1549 (2017). . . . . . . . . . . . . . . . . . . . . 14
Bristol-Myers Squibb v. Superior Court,
137 S. Ct. 1773 (2017). . . . . . . . . . . . . . . . . passim
Brokerwood Int’l (U.S.), Inc. v. Cuisine Crotone, Inc.,
104 F. App’x 376 (5th Cir. 2004) . . . . . . . . . . . . 20
Cain v. Commercial Pub. Co.,
232 U.S. 124 (1914). . . . . . . . . . . . . . . . . . . . . . . 17
Cantor Fitzgerald, L.P. v. Peaslee,
88 F.3d 152 (2d Cir. 1996) . . . . . . . . . . . . . . . . . 18
City of Clarksdale v. BellSouth Telecomms., Inc.,
428 F.3d 206 (5th Cir. 2005). . . . . . . . . . . . . . . . 18
Continental Bank, N.A. v. Meyer,
10 F.3d 1293 (7th Cir. 1993). . . . . . . . . . . . . . . . 20
Eli Lilly & Co. v. Home Ins. Co.,
794 F.2d 710 (D.C. Cir. 1986) . . . . . . . . . . . . . . . 24
Employers Reinsurance Corp. v. Bryant,
299 U.S. 374 (1937). . . . . . . . . . . . . . . . . . . . . . . 21
Ex Parte McCardle,
74 U.S. 506 (1868). . . . . . . . . . . . . . . . . . . . . . . . 22
Flint v. Coffin,
176 F. 872 (4th Cir. 1910). . . . . . . . . . . . . . . . . . 18
Florida Wildlife Fed. Inc. v. United States Army
Corps of Eng., 859 F.3d 1306 (11th Cir. 2017). . . 22

ix
Flowers v. Aetna Cas. & Sur. Co.,
163 F.2d 411 (6th Cir. 1947). . . . . . . . . . . . . . . . 18
Garden Homes, Inc. v. Mason,
238 F.2d 651 (1st Cir. 1956) . . . . . . . . . . . . . 17, 18
Gen. Inv. Co. v. Lake Shore & M.S. Ry. Co.,
260 U.S. 261 (1922). . . . . . . . . . . . . . . . . . . . 16, 24
Goldey v. Morning News of New Haven,
156 U.S. 518 (1895). . . . . . . . . . . . . . . . . . . . . 2, 16
Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d Cir. 1999) . . . . . . . . . . . . . . . 9, 19
Hanson v. Denckla,
357 U.S. 235 (1958). . . . . . . . . . . . . . . . . . . . . . . 13
Heine v. New York Life Ins. Co.,
50 F.2d 382 (9th Cir. 1931). . . . . . . . . . . . . . . . . 18
In re Lipitor Mktg., Sales Practices & Prod. Liab.
Litig., 892 F.3d 624 (4th Cir. 2018) . . . . . . 5, 7, 24
InfoSpan, Inc. v. Emirates NBD Bank PJSC,
903 F.3d 896 (9th Cir. 2018). . . . . . . . . . . . . . . . 20
King v. Taylor,
694 F.3d 650 (6th Cir. 2012). . . . . . . . . . . . . . . . 20
Lazar v. Kroncke,
862 F.3d 1186 (9th Cir. 2017). . . . . . . . . . . . 19, 20
Mobile Anesthesiologists Chicago, LLC v. Anesthesia
Assocs. of Houston Metroplex, P.A.,
623 F.3d 440 (7th Cir. 2010). . . . . . . . . . . . . 19, 20

x
Morris & Co. v. Skandinavia Ins. Co.,
279 U.S. 405 (1929). . . . . . . . . . . . . . . . . . . . 16, 17
Nationwide Eng’g & Control Sys., Inc. v. Thomas,
837 F.2d 345 (8th Cir. 1988). . . . . . . . . . . . . . . . 18
Paper Operations Consultants Int’l, Ltd. v. S.S.
Hong Kong Amber,
513 F.2d 667 (9th Cir. 1975). . . . . . . . . . . . . . . . 24
R.H. Hassler, Inc. v. Shaw,
271 U.S. 195 (1926). . . . . . . . . . . . . . . . . . . . 16, 21
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999). . . . . . . . . . . . 3, 15, 21, 22, 23
Sangha v. Navig8 Ship Mgmt. Private Ltd.,
882 F.3d 96 (5th Cir. 2018). . . . . . . . . . . . . . . . . 22
Silva v. City of Madison,
69 F.3d 1368 (7th Cir. 1995). . . . . . . . . . . . . . . . 18
Sinochem Int’l Co. Ltd. v. Malaysia Int’l Shipping
Corp., 549 U.S. 422 (2007) . . . . . . . . . . . . . . . . . 22
Spectracom, Inc. v. Tyco Int’l, Inc.,
124 F. App’x 75 (3d Cir. 2004) . . . . . . . . . . . . . . 18
Steel Co. v. Citizens for Better Environment,
523 U.S. 83 (1998). . . . . . . . . . . . . . . . . . . . . . 7, 21
United States v. Olano,
507 U.S. 725 (1993). . . . . . . . . . . . . . . . . . . . . . . 17
Usatorres v. Marina Mercante Nicaraguenses, S.A.,
768 F.2d 1285 (11th Cir. 1985). . . . . . . . . . . . . . 18

xi
Wabash W. Ry. v. Brow,
164 U.S. 271 (1896). . . . . . . . . . . . . . . . . . . . . 2, 16
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980). . . . . . . . . . . . . . . . . . . . 13, 24
Yeldell v. Tutt,
913 F.2d 533 (8th Cir. 1990). . . . . . . . . . . . . . . . 20
STATUTES
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1332 . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
RULES
Fed. R. Civ. P. 12 . . . . . . . . . . . . . . . . . . . . . . . . . 6, 17
Cal. Code Civ. P. 418.10. . . . . . . . . . . . . . . . . . . . . . . 4
OTHER AUTHORITY
14C Charles Alan Wright et al., Federal Practice &
Procedure (Rev. 4th ed. 2019) . . . . . . . . . . . . . . 16

PETITION FOR WRIT OF CERTIORARI
In this litigation, the California courts crafted a
novel and entirely baseless forfeiture rule under federal
law in order to overlook the very same personal
jurisdiction defect that this Court recognized only two
years ago when it reversed the California Supreme
Court in Bristol-Myers Squibb v. Superior Court, 137
S. Ct. 1773 (2017). Just like Bristol-Myers, this case
involves massive pharmaceutical products liability
litigation in which California courts have exercised
personal jurisdiction over claims by scores of nonresident Plaintiffs that have been joined to claims by a
small minority of California residents. In BristolMyers, this Court held 8-1 that there was “no support
for this approach” and that “settled principles
regarding specific jurisdiction” precluded jurisdiction
over the non-resident plaintiffs’ claims in the California
courts. Id. at 1781. Bristol-Myers thus settled the
issue of personal jurisdiction here: following that
decision, neither plaintiffs nor the courts below
disputed the lack of personal jurisdiction over the
claims of the non-resident Plaintiffs.
Nevertheless, instead of applying Bristol-Myers, the
California courts ruled that Pfizer had forfeited its
undisputedly meritorious personal jurisdiction defense,
which it had timely asserted in its answers. Although
the trial court purported to apply the federal law of
forfeiture, the rule it fashioned was contrary to over a
century of precedents from this Court and a uniform
body of law from the federal Courts of Appeals. It
stated that Pfizer “had more than enough time to
litigate” personal jurisdiction while it was seeking to

2
establish subject matter jurisdiction over these cases in
a federal multi-district litigation.1 App. 12. And on
that basis it held that Pfizer had forfeited its right to
challenge personal jurisdiction by failing to file a Rule
12 motion while it was seeking to establish federal
subject matter jurisdiction, despite Pfizer’s earlier (and
timely) objection to personal jurisdiction in the
Answers it filed in federal court following removal. Id.
A divided California Court of Appeal affirmed, and the
California Supreme Court denied review.
The California courts’ rulings on this issue, which
purport to apply federal law, are quite literally
unprecedented. No case cited by Plaintiffs or any of the
courts below has ever held that litigation of federal
subject matter jurisdiction following removal triggers
a forfeiture of personal jurisdiction. To the contrary,
decisions of this Court and the Courts of Appeals over
more than a century have held that litigating federal
subject matter jurisdiction upon removal does not
forfeit personal jurisdiction defenses. See Goldey v.
Morning News of New Haven, 156 U.S. 518, 525-26
(1895); Wabash W. Ry. v. Brow, 164 U.S. 271, 277-78
(1896). That is because, among other reasons, subject
matter jurisdiction ordinarily precedes personal
jurisdiction in litigation—especially where, as here,
1

Pfizer is currently seeking review of the federal courts’ rejection
of federal subject matter jurisdiction over these cases in its
pending petition in Pfizer Inc. v. Adamyan, No. 18-1578. Because
this Petition and Adamyan involve interlocking questions of
jurisdiction over the same set of cases arising simultaneously from
two parallel court systems, Pfizer respectfully suggests that the
Court could benefit from considering the two petitions on the same
schedule.

3
personal jurisdiction cannot be decided until the court
has determined its subject matter jurisdiction. See
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 586-88
(1999). Although Pfizer was required to follow that
ordinary procedure here, the California courts
penalized it for doing so by rejecting its admittedly
meritorious due process defense.
Not only do the California courts’ rulings in this
case evade Bristol-Myers by contorting decades of this
Court’s precedents, they also threaten to place classand mass-action defendants like Pfizer in the
untenable position of choosing between their federal
statutory and constitutional rights. The rule of the
California courts treats defendants as having forfeited
their constitutional due process rights merely by
exercising their federal statutory right, under the Class
Action Fairness Act, to remove cases like this to federal
courts. This rule would impermissibly force out-ofstate defendants to either give up their federal right to
a federal forum free from in-state bias or to give up
their federal right to a forum with some minimum
connection to the claims against them. The Court
should not countenance a state court crafting such a
federal law Catch-22 in any circumstance—let alone
when doing so transparently evades a precedent of this
Court issued only two years ago, in a case reversing the
same California courts. Because the rule applied in
this case flouts this Court’s decision in Bristol-Myers
and is contrary to every known authority under federal
law, this Court should grant certiorari and reverse.

4
OPINIONS BELOW
The order of the Supreme Court of California
denying review is unreported and reproduced at
App.20. The order of the California Court of Appeal
affirming the trial court is unreported and reproduced
at App.1-2. The order of the Superior Court of
California denying Pfizer’s motion to quash summons
is unreported and reproduced at App.3-19.
JURISDICTION
On April 12, 2019, Pfizer filed a petition for writ of
mandate from the Superior Court’s March 15, 2019
decision, which was timely pursuant to an extension
granted by the Superior Court under California Code of
Civil Procedure § 418.10(c). See App.82. A divided
panel of the California Court of Appeal affirmed on
May 13, 2019, App.1-2, and Pfizer timely sought review
in the California Supreme Court on May 23, 2019. On
July 31, 2019, the California Supreme Court denied
review. App.20. This Court has jurisdiction under 28
U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourteenth Amendment provides in part:
No state shall . . . deprive any person of life,
liberty, or property, without due process of law.

5
STATEMENT OF THE CASE
A. The California Lipitor Litigation
The cases at issue in this Petition and the currently
pending petition in Pfizer Inc. v. Adamyan, No. 181578, are part of a larger, nationwide litigation in
which the plaintiffs allege that they developed type 2
diabetes due to their use of Lipitor, a cholesterollowering medication manufactured by Pfizer. See
App.24, 83. Federal actions in the Lipitor litigation
were coordinated for pre-trial proceedings in a multidistrict litigation in the District of South Carolina
before Judge Richard Gergel (the “MDL judge”). See
App.83. In late 2015, the MDL judge granted summary
judgment in Pfizer’s favor as to all claims over which it
had jurisdiction (more than 3,000 plaintiffs) due to lack
of admissible expert testimony on causation. Id. The
Fourth Circuit affirmed those dispositions in their
entirety. In re Lipitor Mktg., Sales Practices & Prod.
Liab. Litig., 892 F.3d 624 (4th Cir. 2018).
The more than 4,200 Plaintiffs in these actions
represent the largest parallel state-court proceeding to
the federal Lipitor litigation. In fact, they alone exceed
the total number of plaintiffs whose claims were
dismissed in the MDL. These Plaintiffs seek to litigate
in the California state courts in order to obtain a
different result than the MDL on the reliability of their
expert evidence.
When Plaintiffs began filing these actions in 2013,
they employed a variety of tactics aimed at keeping this
litigation in the California state courts. As detailed in
Pfizer’s pending petition in Adamyan, No. 18-1578,

6
they sought to avoid the threshold for mass action
jurisdiction under the Class Action Fairness Act
(CAFA) by filing separate actions with less than 100
plaintiffs each. See 28 U.S.C. § 1332(d)(11). And they
sought to extend the personal jurisdiction of the
California courts over the non-resident Plaintiffs’
claims through the same procedural devices that were
used in Bristol-Myers. Here, as in Bristol-Myers,
Plaintiffs filed multi-plaintiff complaints that consisted
predominantly of non-resident Plaintiffs, to which a
handful of California Plaintiffs were joined. See
App.83-85; Bristol-Myers, 137 S. Ct. at 1782-83. And
while their primary claims were against Pfizer, a nonresident defendant, they also sued McKesson
Corporation, a distributor, as a token in-state
Defendant. See App.83-85; Bristol-Myers, 137 S. Ct. at
1783.
B. Proceedings In Federal Court
Beginning in 2014, Pfizer removed these actions to
federal court. Along with other grounds, Pfizer invoked
CAFA’s mass action provisions based on Plaintiffs’
proposals to join these cases to a single coordinated
proceeding in Los Angeles Superior Court. There is no
dispute that Pfizer took the required steps under
federal law to preserve its personal jurisdiction defense
by asserting that defense in the Answers it filed upon
removal. See App.5, 85; Fed. R. Civ. P. 12(h).
However, because those personal jurisdiction defenses
related only to the claims of the non-resident Plaintiffs
and not to the entire action, they could not be decided
by a federal court until after the court assured itself of
federal subject matter jurisdiction over the actions

7
themselves. See Steel Co. v. Citizens for Better
Environment, 523 U.S. 83 (1998).
Following removal, these cases were transferred to
the Lipitor MDL, whereupon Plaintiffs moved to
remand to state court and to stay discovery pending a
determination of subject matter jurisdiction. See
App.86. Pfizer agreed to the proposed stay, but asked
that Plaintiffs be ordered: (1) to participate in the
ongoing depositions of witnesses common to all MDL
actions, to avoid “multiple depositions of those
witnesses”; and (2) to provide “very limited and
narrowly tailored jurisdictional discovery.” See App.8687. The MDL judge stayed all discovery in these cases
except the common depositions, but it denied Pfizer’s
request for jurisdictional discovery without prejudice.
See App.87.
While the Plaintiffs’ motions to remand these cases
to state court were pending, the MDL judge granted in
substantial part Pfizer’s Daubert motions to exclude
Plaintiffs’ expert testimony on causation. See In re
Lipitor, 892 F.3d at 629-31. In light of those rulings,
the MDL judge issued an order that required any
plaintiff who contended her claims would survive the
Daubert rulings to state so within specified periods.
See App.43. After the expiration of those periods set by
the MDL judge, Pfizer filed an omnibus summary
judgment motion due to lack of admissible evidence of
causation. Although the Plaintiffs in these cases had
not timely responded to the earlier order, they opposed
summary judgment on the ground that their cases
remained stayed pending final resolution of their
motion to remand. See App.52.

8
In its reply brief in support of summary judgment,
Pfizer stated that the MDL court had “subject matter
jurisdiction over all cases,” but that “[t]o the extent the
Court defers ruling on summary judgment in cases
where Plaintiffs have moved to remand,” it reserved its
right to renew its motion for summary judgment at a
later time. See App.51-52. Pfizer added that, because
Plaintiffs here did not answer the court’s earlier call to
distinguish their claims, the MDL judge could “issue a
similar order after addressing the remand motions.”
App.52.
In late 2016, just before ruling on summary
judgment, the MDL court determined that the
California federal courts needed to decide the existence
of CAFA mass action jurisdiction. These actions were
accordingly returned to the California federal courts,
where Pfizer again noted the personal jurisdiction
defenses that it had asserted and preserved in its
answers. App.65. At a status conference in the
Central District of California (Carney, J.), the district
court acknowledged that Pfizer had not “waived any . . .
defenses or arguments or issues,” but explained that he
wanted first to decide subject matter jurisdiction under
CAFA before addressing personal jurisdiction. App.66.
The California federal courts ultimately remanded
these actions to state court.
C. Proceedings After Remand
Following remand, the California state courts acted
sua sponte to join these actions to the coordinated
proceeding for Lipitor cases. Based on those judicial
proposals, Pfizer again removed the cases to federal
court as a CAFA mass action, contending that they

9
were “proposed to be tried jointly” by the state courts.
See 28 U.S.C. § 1332(d)(11)(B)(i). But the Central
District of California (Carney, J.) again remanded,
holding that courts cannot make a proposal for
purposes of CAFA mass action removal. The Ninth
Circuit denied review, and Pfizer filed a petition for
certiorari, which remains pending in Adamyan, No. 181578.
After these actions were remanded to the
coordinated proceeding in Los Angeles Superior Court,
Pfizer filed a motion to dismiss the claims of the nonresident plaintiffs for lack of personal jurisdiction and
under forum non conveniens. See App.4. Plaintiffs
opposed that motion but did not dispute that Pfizer was
entitled to dismissal under both of those doctrines.
Instead, they contended only that Pfizer had forfeited
its right to assert those defenses by removing the cases
to federal court and litigating subject matter
jurisdiction. See App.8.
On March 15, 2019, the trial court denied Pfizer’s
motions, ruling under federal law that Pfizer had
forfeited its personal jurisdiction defenses. App.12.
The trial court held that, because Plaintiffs alleged
forfeiture based on Pfizer’s “actions in federal court,”
the question of forfeiture was governed by “federal
procedural law.” App.8. The trial court then held that
because Pfizer “had more than enough time to” file a
personal jurisdiction motion while it was litigating
subject matter jurisdiction in the MDL, it was therefore
required to do so. App.12. The trial court determined
that the issue in these cases was “similar” to Hamilton
v. Atlas Turner, Inc., App.9-11, where the Second

10
Circuit found that a party that had “participat[ed] in
litigation” on the merits in an MDL for three years had
thereby forfeited its personal jurisdiction defense. 197
F.3d 58, 61 (2d Cir. 1999). In addition, the trial court
found that Pfizer’s reply in support of summary
judgment “acquiesce[ed]” to jurisdiction by stating that
the MDL judge could conduct summary judgment
proceedings in these cases after ruling on subject
matter jurisdiction.
App.14.
Finally, although
Plaintiffs had not disputed the merits of Pfizer’s
requested forum non conveniens dismissal, the trial
court ruled it was improper. See App.15-19.
Pfizer filed a petition for writ of mandate to review
the trial court’s decision. App.68-122. A divided panel
of the California Court of Appeal summarily affirmed,
stating that the trial court “did not err in denying the
motion to quash service of summons for lack of
personal jurisdiction.” App.2. Presiding Judge Baker
dissented, stating that he “would issue an order to
show cause” for further briefing. Id. Pfizer then filed
a timely petition for review in the California Supreme
Court. The California Supreme Court denied review,
with Justice Chin recused. App.20. This timely
petition for writ of certiorari now follows.
REASONS FOR GRANTING THE PETITION
The Court should grant certiorari and reverse the
California courts’ transparent effort to evade this
Court’s ruling in Bristol-Myers by fashioning a federal
law forfeiture rule out of step with every relevant
decision from this Court and the Courts of Appeals.
Rather than adhering to this Court’s ruling in BristolMyers, the California courts applied a forfeiture rule

11
that has never been recognized by any federal court
and that squarely conflicts with over a century of
precedents from this Court, along with scores of Circuit
Court precedents over the same period. The California
courts held that Pfizer forfeited its right to assert its
otherwise fully preserved personal jurisdiction defense
based on nothing more than the litigation of the
logically antecedent question of subject matter
jurisdiction after removal to federal court.
Not only is the California courts’ rule in conflict
with every known federal court decision on this
question, but it forces defendants in mass and class
actions to choose between pursuing valid personal
jurisdiction defenses or removing claims to federal
court under the Class Action Fairness Act. App.12.
Here, this aberrant view of federal law has deprived
Pfizer of the ability to assert its admittedly meritorious
constitutional defense in thousands of cases. And there
is no doubt that plaintiffs’ counsel will pursue a similar
tack in future cases if the rulings in this case are
allowed to stand.
The Court should grant review to bring the
California courts in line with federal precedents and to
ensure that its ruling in Bristol-Myers is faithfully
enforced. In fact, because the lower courts’ decisions
conflict with every other decision under the federal law
they purported to apply, and so patently evade the
mandate of Bristol-Myers, Petitioners respectfully
suggest that this case may present an exceptionally
strong case for summary reversal.

12
I. Review Is Necessary To Bring The California
Courts In Line With Federal Law And To
Enforce Bristol-Myers.
In Bristol-Myers, this Court rejected the California
courts’ interpretation of the federal law of personal
jurisdiction, which was contrary to every federal
appellate decision on the issue. Here, in order to avoid
the effect of Bristol-Myers, the California courts crafted
a standard for the federal law of forfeiture that is
contrary to more than 100 years of this Court’s
jurisprudence and every other known decision on the
issue. See App.12. The stakes of the error in this
coordinated litigation are the very same stakes that led
this Court to grant review in Bristol-Myers. They
warrant review here to ensure that these important
constitutional defenses are not divested by an
erroneous view of forfeiture. The rule crafted by the
California courts would force defendants in massive
multi-plaintiff actions to choose between asserting
their due process right under the U.S. Constitution to
challenge personal jurisdiction and asserting their
statutory right to remove such actions to federal court
under the federal Class Action Fairness Act. Federal
law imposes no such dilemma.
Bristol-Myers is squarely on point, having rejected
as contrary to due process the very same extravagant
assertion of nationwide personal jurisdiction that the
California courts upheld here. Under facts nearly
identical to these cases, Bristol-Myers held that the
California courts lacked personal jurisdiction over the
claims of non-resident plaintiffs. 137 S. Ct. at 1783-84.
There, as here, the California courts confronted multi-

13
plaintiff pharmaceutical products liability actions,
consisting primarily of non-resident plaintiffs, to which
McKesson had been joined as an in-state defendant.
Id. at 1782-83. There, as here, the primary defendant
was neither incorporated nor headquartered in
California, and the non-resident plaintiffs lacked any
link from the defendant’s California contacts to their
claims. Id. And ultimately, “settled principles
regarding specific jurisdiction” dictated that there was
no personal jurisdiction over the non-residents’ claims
due to the lack of “a connection between the forum and
the specific claims at issue.” Id. at 1781.
As this Court explained in Bristol-Myers, these due
process limits not only protect a defendant’s fair notice
interest in being free from “inconvenient or distant
litigation,” but also embrace “the more abstract matter
of submitting to the coercive power of a State that may
have little legitimate interest in the claims in
question.” Id. at 1780. In the latter regard, personal
jurisdiction is “‘a consequence of territorial limitations
on the power of the respective States.’” Id. (quoting
Hanson v. Denckla, 357 U.S. 235, 251 (1958)). Thus,
even apart from concerns of convenience and the forum
state’s established interests in applying its law, “‘the
Due Process Clause, acting as an instrument of
interstate federalism, may sometimes act to divest the
State of its power to render a valid judgment.’” Id. at
1781 (quoting World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 294 (1980)). Just as in BristolMyers, it is critical here that the California courts be
constrained to the lawful limits of their territorial
jurisdiction.

14
There is no dispute that, under the Constitution as
enforced by this Court’s decision in Bristol-Myers,
Pfizer is entitled to dismissal of the non-resident
Plaintiffs’ claims for lack of personal jurisdiction. Yet
the California courts have prevented that defense from
even being heard by crafting a novel rule of the federal
law of forfeiture that, as set forth below, is contrary to
every known federal decision on the issue. That they
have done so via summary rulings and denials of
discretionary review is no impediment to this Court’s
review. If anything, it only underscores the need for
this Court’s intervention. The California court’s
actions egregiously violate Pfizer’s constitutional
rights, a blatant attempt to circumvent this Court’s
decision in Bristol-Myers, in the same type of massive
tort litigation in which that case was decided. This
Court has previously granted review to ensure the
lower courts’ adherence to its personal jurisdiction
precedents. See BNSF Ry. Co. v. Tyrrell, 137 S. Ct.
1549, 1559 (2017). It should do so here as well.
II. The California Courts’ Decisions Squarely
Conflict With The Precedents Of This Court
And The Courts Of Appeals.
As both the parties and the lower courts agreed, the
trial court’s ruling on forfeiture presented a question of
federal law because it concerned Pfizer’s conduct in
federal court. App.8. The trial court’s central holding
below was that because Pfizer “had more than enough
time to litigate” personal jurisdiction in the MDL, it
forfeited that issue by not filing a Rule 12 motion
asserting a personal jurisdiction defense while
litigating the antecedent question of federal subject

15
matter jurisdiction. App.12. But, upon Plaintiffs’ own
request, while these cases were in the MDL, they were
stayed pending determination of subject matter
jurisdiction. See App.5, 86. There was no discovery
conducted in these cases during that time—even
Pfizer’s request for jurisdictional discovery was denied.
See App.86-87.2 Consequently, the California courts
found a forfeiture of personal jurisdiction under federal
law based on conduct that consisted solely of litigating
subject matter jurisdiction. This ruling is contrary to
settled precedent from this Court and the Courts of
Appeals concerning forfeiture of personal jurisdiction,
as well as to this Court’s precedents concerning the
relationship between subject matter and personal
jurisdiction.
A. Federal Precedents Unequivocally Reject
the Notion that Litigating Subject Matter
Jurisdiction Forfeits Personal Jurisdiction.
While purporting to apply federal law, the trial
court contradicted a vast and long-standing body of
case law from this Court. Although this Court has long
recognized that a party may forfeit personal
jurisdiction by its failure to timely assert its due
process rights, see Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574, 584 (1999), it has also been emphatically
clear that the assertion and litigation of subject matter
2

Although the MDL judge required Plaintiffs to participate in the
depositions of common defense witnesses being taken in the other
MDL cases, App.87, that common discovery does not involve
litigation of any issue specific to these cases. Moreover, in any
event, those common depositions would have been conducted in
coordination with the MDL even if these cases had remained in
state court. See id.

16
jurisdiction does not have that effect. For more than
120 years, this Court has recognized that “the exercise
of the right of removal” is not a consent to the
territorial jurisdiction of the state court. Wabash, 164
U.S. at 279. This Court explained in Wabash that
because removal itself “challenge[s] the jurisdiction of
the state court, in the sense of declining to submit to
it,” it “is impossible” that the removal effects a
submission “to the jurisdiction of the state court” over
the defendant’s person. Id. Thus, “[i]t is well-settled
that removal of a case does not act as a general consent
to jurisdiction, defeating the motion or defense.” 14C
Charles Alan Wright et al., Federal Practice &
Procedure § 3738 (Rev. 4th ed. 2019) (collecting cases).
Further, because the invocation of federal subject
matter jurisdiction in a notice of removal does not
forfeit personal jurisdiction, a fortiori, the continued
invocation of subject matter jurisdiction through
litigation does not effect a forfeiture. Thus, this Court
explained in Goldey v. Morning News of New Haven
that whether “the attempt to remove should be
successful or unsuccessful” after it has been litigated,
it cannot “be treated as submitting the defendant to the
jurisdiction of the state court for any other purpose.”
156 U.S. 518, 525-26 (1895); see also, e.g., Gen. Inv. Co.
v. Lake Shore & M.S. Ry. Co., 260 U.S. 261, 268-69
(1922) (“[A]fter the removal the party securing it has
the same right to invoke the decision of the United
States court on the validity of the prior service that he
has to ask its judgment on the merits.”); R.H. Hassler,
Inc. v. Shaw, 271 U.S. 195, 199 (1926) (holding that it
“would be unjust” if “the petition to remove had th[e]
effect” of forfeiting personal jurisdiction); Morris & Co.

17
v. Skandinavia Ins. Co., 279 U.S. 405, 409 (1929)
(rejecting the argument that “by removal of the case to
the federal court, objection to jurisdiction over the
person of respondent was waived”).3
Indeed, this Court has explained that this rule
against forfeiture through removal is “essential . . . to
the right of removal.” Cain v. Commercial Pub. Co.,
232 U.S. 124, 133 (1914). Were the law otherwise, a
state court plaintiff would be permitted to “serve
process on a person having no relation with a
defendant, and compel him to submit to it and to a
jurisdiction not of his residence,” or surrender his right
to remove the case to what “may be a more impartial
tribunal for the determination of the action.” Id. Yet
that is precisely what Plaintiffs attempted here—to
force Pfizer to give up its right to removal or give up
personal jurisdiction. And that is precisely the result
the California courts endorsed.
In addition, decisions of the Courts of Appeals
spanning more than a century are in total accord in
rejecting the lower courts’ conclusion here. See, e.g.,
Garden Homes, Inc. v. Mason, 238 F.2d 651, 653 (1st
3

Although some cases treat waiver and forfeiture as synonymous,
this Court’s more recent precedents have distinguished between
the two.
“[W]aiver is the intentional relinquishment or
abandonment of a known right,” while “forfeiture is the failure to
make the timely assertion of a right.” United States v. Olano, 507
U.S. 725, 733 (1993) (internal citation and quotation marks
omitted). For personal jurisdiction, questions of waiver are
governed by the Federal Rules of Civil Procedure, which dictate
that the defense is preserved from waiver where it is timely stated
in the defendant’s answer. See Fed. R. Civ. P. 12(h). Because
Pfizer did so here, see App.5, 85, there is no question of waiver.

18
Cir. 1956) (a personal jurisdiction defense “is not
waived upon removal of an action from the state court
to a federal court”); Cantor Fitzgerald, L.P. v. Peaslee,
88 F.3d 152, 157 n.4 (2d Cir. 1996) (rejecting argument
that defendant “waived his defense of lack of personal
jurisdiction by removing to federal court”); Spectracom,
Inc. v. Tyco Int’l, Inc., 124 F. App’x 75, 77 (3d Cir. 2004)
(“[T]he filing of a removal petition in a diversity action
does not constitute a waiver.”); Flint v. Coffin, 176 F.
872, 874-75 (4th Cir. 1910) (“The filing of a petition to
remove a cause from a state to a federal court does not
amount to a general appearance.”); City of Clarksdale
v. BellSouth Telecomms., Inc., 428 F.3d 206, 214 n.15
(5th Cir. 2005) (“A defendant’s removal to federal court
does not waive its right to object to service of process.”);
Flowers v. Aetna Cas. & Sur. Co., 163 F.2d 411, 415
(6th Cir. 1947) (“A petition for removal, even though
unqualified in its terms, amounts only to a special
appearance instead of a general appearance[.]”); Silva
v. City of Madison, 69 F.3d 1368, 1376 (7th Cir. 1995)
(a defendant’s personal jurisdiction defense “is not
waived by filing a petition for removal to federal
court.”); Nationwide Eng’g & Control Sys., Inc. v.
Thomas, 837 F.2d 345, 347-48 (8th Cir.
1988) (“Removal, in itself, does not constitute a waiver
of any right to object to lack of personal
jurisdiction[.]”); Heine v. New York Life Ins. Co., 50
F.2d 382, 387 (9th Cir. 1931) (“Nor is the right to
challenge the jurisdiction or to invite the discretion of
the court waived or forfeited by removal from the state
to the federal court.”); Usatorres v. Marina Mercante
Nicaraguenses, S.A., 768 F.2d 1285, 1287 (11th Cir.
1985) (holding that failure to assert personal
jurisdiction in motion to remand did not waive defense

19
because “Rule 12 provides that a personal jurisdiction
defense is waived only if omitted from a Rule 12 motion
or from a responsive pleading.”).
The trial court claimed there was support for its
decision in Hamilton v. Atlas Turner, Inc., 197 F.3d 58
(2d Cir. 1999), which it said was “similar” because the
defendant in Hamilton did not file a personal
jurisdiction motion while cases were pending in an
MDL. See App.10-12 (citing 197 F.3d at 60). On
inspection, though, Hamilton is plainly inapposite. The
critical basis for the forfeiture finding there was the
defendant “participating in litigation,” 197 F.3d at 59,
with “[c]onsiderable pretrial activity,” including
completion of merits discovery and participation in
settlement conferences. 197 F.3d at 61. No such
extensive discovery or merits litigation occurred here.
On the contrary, the federal court litigation of these
cases was stayed—at Plaintiffs’ request—pending
resolution of subject matter jurisdiction.
Indeed, the existence of litigation on the merits was
critical not only to the result in Hamilton, but also to
every other Court of Appeals decision that has found
forfeiture.
In general, forfeiture of personal
jurisdiction requires “conduct inconsistent with raising
or maintaining the defense.” Lazar v. Kroncke, 862
F.3d 1186, 1200-01 (9th Cir. 2017). Thus, courts have
found that a defendant forfeits personal jurisdiction if
it litigates on the merits and thus “cause[s] the court to
go to some effort that would be wasted if personal
jurisdiction is later found lacking.” Mobile
Anesthesiologists Chicago, LLC v. Anesthesia Assocs. of
Houston Metroplex, P.A., 623 F.3d 440, 443 (7th Cir.

20
2010); accord InfoSpan, Inc. v. Emirates NBD Bank
PJSC, 903 F.3d 896, 901 (9th Cir. 2018). Or a
forfeiture may occur if the defendant’s conduct
otherwise “manifests an intent to submit to the court’s
jurisdiction.” Yeldell v. Tutt, 913 F.2d 533, 539 (8th
Cir. 1990); accord Brokerwood Int’l (U.S.), Inc. v.
Cuisine Crotone, Inc., 104 F. App’x 376, 380 (5th Cir.
2004); Continental Bank, N.A. v. Meyer, 10 F.3d 1293,
1297 (7th Cir. 1993); King v. Taylor, 694 F.3d 650, 660
(6th Cir. 2012); Lazar, 862 F.3d at 1200-01. But, to
Pfizer’s knowledge, no federal decision has ever found
a forfeiture of personal jurisdiction under federal law
in the absence of any litigation on the merits or
evidence of intent to do so. Nor was any such decision
cited by the courts or the parties below.
The decisions of the California courts—while
purporting to apply federal law—represent the lone
deviation from an otherwise unbroken and unanimous
jurisprudence of more than a century. The Court
should grant review to resolve the conflict the
California courts have created and bring them in line
with that towering wall of precedent.
B. The California Courts’ Rulings Contradict
This Court’s Precedents on the
Relationship Between Subject Matter and
Personal Jurisdiction.
The California courts’ rulings here are contrary not
only to this Court’s jurisprudence on forfeiture, but also
to its holdings on the structural relationship between
subject matter jurisdiction and personal jurisdiction.
Though both subject matter and personal jurisdiction
are “‘essential element[s] to the jurisdiction of a

21
district . . . court,’ without which the court is ‘powerless
to proceed to an adjudication,’” the character of each
“unquestionably differs.” Ruhrgas, 526 U.S. at 584
(quoting Employers Reinsurance Corp. v. Bryant, 299
U.S. 374, 382 (1937)). For example, subject matter
jurisdiction “is nonwaivable and delimits federal-court
power, while restrictions on a court’s jurisdiction over
the person are waivable and protect individual rights.”
Id. at 583. Because of these and other differences,
subject matter and personal jurisdiction are nonexclusive of one another—as in Ruhrgas, a court may
find the one and reject the other. See id. at 588; see
also R.H. Hassler, 271 U.S. at 199-200.
The constitutional architecture of these two
foundations of judicial power “does not dictate a
sequencing of jurisdictional issues,” since “[i]t is hardly
novel for a federal court to choose among threshold
grounds for denying audience to a case on the merits.”
Ruhrgas, 526 U.S. at 584-85. However, because
“subject-matter jurisdiction necessarily precedes a
ruling on the merits,” it must be decided first unless
personal jurisdiction is also dispositive of the case. Id.
at 584 (citing Steel Co. v. Citizens for Better
Environment, 523 U.S. 83 (1998)). And even if both
grounds are potentially case-dispositive, in most
instances, if “subject-matter jurisdiction is resolved as
easily as personal jurisdiction,” then “federalism
concerns” will “tip the scales” in favor of deciding
subject matter jurisdiction first. Id. at 586 (internal
citation and quotation marks omitted). Only if it is
possible to dispense with a difficult question of subject
matter jurisdiction by deciding personal jurisdiction
first, then “[t]he federal design allows leeway” for a

22
district court to do so in the interests of “judicial
economy and restraint.”
Id. at 586-87; accord
Sinochem Int’l Co. Ltd. v. Malaysia Int’l Shipping
Corp., 549 U.S. 422, 431 (2007). Thus, it remains “the
general expectation that federal courts address subjectmatter jurisdiction at the outset in the mine run of
cases.” Sangha v. Navig8 Ship Mgmt. Private Ltd., 882
F.3d 96, 100 (5th Cir. 2018) (internal citation and
quotation marks omitted); Florida Wildlife Fed. Inc. v.
United States Army Corps of Eng., 859 F.3d 1306, 1324
(11th Cir. 2017).
Applying the Ruhrgas framework here, Pfizer was
not only permitted, but required, to litigate subject
matter jurisdiction before personal jurisdiction.
Because Pfizer’s personal jurisdiction defense relates
only to the claims of the non-resident Plaintiffs, not the
entire action, see App.4, deciding it first would not
obviate the need to resolve subject matter jurisdiction.
Rather, under any scenario, a court would first need to
have subject matter jurisdiction over the entire action
before it could dismiss constituent claims thereof for
lack of personal jurisdiction—for “[w]ithout jurisdiction
the court cannot proceed at all in any cause.” Ex Parte
McCardle, 74 U.S. 506, 514 (1868). A ruling on subject
matter jurisdiction over the entire action thus
necessarily preceded a decision on the claims of the
non-resident Plaintiffs. Consequently, had Pfizer filed
a motion to dismiss for lack of personal jurisdiction in
the MDL—as the California courts held it should
have—it would have been purely futile before subject
matter jurisdiction was established.

23
The trial court completely misapplied this principle,
ruling that Ruhrgas showed that Pfizer “could have
asked the federal courts to first decide the issue of
personal jurisdiction before addressing the issue of
subject matter jurisdiction.” App.15. In doing so, the
trial court not only transformed Ruhrgas’s flexible
jurisdictional sequencing into a rigid requirement to
litigate personal jurisdiction first, it also demanded
that Pfizer take an action that Ruhrgas explicitly
prohibits. 526 U.S. at 586-87. The California courts
thus punished Pfizer for failing to file a motion that the
MDL court would have been powerless to decide.
Finally, the trial court also ignored the relationship
between subject matter and personal jurisdiction by
finding a forfeiture in the concluding footnote of
Pfizer’s reply in support of summary judgment.
App.14. In that footnote, Pfizer stated that the MDL
judge, after finding subject matter jurisdiction in these
cases, could “issue a similar order” commencing
summary judgment procedures in these cases as it had
done for the others in the MDL. App.52. The trial
court held that Pfizer’s statement was “seeking a ruling
on the merits of the California cases” that forfeited its
jurisdictional defenses in California state court.
App.12.
The trial court’s reading of Pfizer’s conditional
waiver of jurisdiction as an unconditional consent to
jurisdiction is unsupportable under this Court’s
precedents. This Court has long held that if federal
subject matter jurisdiction is confirmed following
removal, “the party securing it has the same right to
invoke the decision of the United States court” as to

24
personal jurisdiction “that he has to ask its judgment
on the merits.” Gen. Inv. Co. v. Lake Shore & M.S. Ry.
Co., 260 U.S. 261, 268-69 (1922). For the same
reasons, it was Pfizer’s right to state prospectively that
it would waive its personal jurisdiction objections on
the condition that subject matter jurisdiction were
established, as parties frequently do both in litigation
and in contract.4 Here, the condition offered—a finding
of subject matter jurisdiction—went unfulfilled,
thereby rendering any suggested waiver a nullity. Yet
the trial court treated this single footnote in Pfizer’s
reply brief as having assented to a power that the MDL
court determined it did not have.5 No other decision
has found forfeiture on such meager scraps, and this
Court should not allow it to begin now.
4

Parties frequently offer and courts enforce conditional waivers of
jurisdiction that are contingent upon litigation in a particular
forum. For example, such waivers may be given as a condition of
a requested forum non conveniens dismissal or venue transfer, see,
e.g., Paper Operations Consultants Int’l, Ltd. v. S.S. Hong Kong
Amber, 513 F.2d 667, 672-73 (9th Cir. 1975), or as a negotiated
term in an ex ante contract provision for dispute resolution, see,
e.g., Eli Lilly & Co. v. Home Ins. Co., 794 F.2d 710, 718 (D.C. Cir.
1986).
5

Moreover, that conditional waiver here was fully consonant with
the fairness principles that undergird due process limits on
personal jurisdiction. Because personal jurisdiction concerns “the
burdens of litigating in a distant or inconvenient forum,” WorldWide Volkswagen Corp., 444 U.S. at 291-92, it matters greatly to
a defendant haled into court whether that court is state or federal.
Under the precedents in the MDL court here, consenting to
personal jurisdiction in federal court would likely have casedispositive effect, see In re Lipitor, 227 F. Supp. 3d 452, 487–88
(D.S.C. 2017), aff’d, 892 F.3d 624 (4th Cir. 2018), while litigating
in California state court would begin the litigation process anew.

25
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
SHEILA L. BIRNBAUM
MARK S. CHEFFO
RACHEL B. PASSARETTI-WU
LINCOLN DAVIS WILSON
DECHERT LLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

Counsel for Petitioners
August 28, 2019

A-1
ADDENDUM
LIST OF PARTIES
1.Kim Allen
2.Maria Guerrero
Anthony
3.Eliza Ballard
4.Violeta Bermudez
5.Rachel Bouret
6.Shirley Brumfield
7.Earnestine Bryant
8.Eva Burney
9.Clarissa Byrd
10.Kymberly Cancilla
11.Tammie Carden
12.Jan Clark
13.Kathleen Doner
14.Maridee Earl
15.Virginia Mae
Edington
16.Tammy Edwards
17.Joanne
Ellis-Steinmetz
18.Linda Fisher
19.Debra Fleak
20.Alfaye Gowans-Taylor
21.Herminia Guillen
22.Claudette Howard
23.Shirl Howard
24.Bertha Hughes
25.Tracey Ignazzitto
26.Alberta Jones
27.Alice Jones

28.Kathleen Karmis
29.Connie Kelley
30.Alice Kemp
31.Shavonda Kidd
32.Veronica
Laurent-Callihan
33.Clara M. Lewis
34.Denise Lewis
35.Marianela Luna
36.Linda Manley
37.Jeri Martinez
38.Annette Matney
39.Jamie McClenan
40.Judy Meeks
41.Carol Miller
42.Mary Miller
43.Barbara Mosley
44.Mary Kay Moss
45.Lora Napier
46.Marion Nicholson
47.Ida Pancioli
48.Marilyn Parker
49.Linda Pechan-Lake
50.Becky Pekar
51.Carmen Perez
52.Linda Reed
53.Deon Revis
54.Laverene Robinson
55.Lupe Vasquez
Rodriguez

A-2
56.Carmella Rokes
57.Jean Rose
58.Olga Salazar
59.Sheila Sanford
60.Susan Schlenker
61.Lori Schnabel
62.Henrietta Seamster
63.Sandra Slaton
64.Sherry Smith
65.Elberta Stewart
66.Linda Strickland
67.Charlesetta Taylor
68.Altena Thomas
69.Barbara Vajda
70.Cheryl Walters
71.Mary Kathryn
Warren
72.Pat Loper Wiget
73.Janet Wilburn
74.Jennie Williams
75.Lillians Winslow
76.Terri Wolf
77.Deborah Woods
78.Donna Zuar
79.Willetta Allman
80.Charlene Campbell
81.Vivian Cleveland
82.Rhonda Durden
83.Peggy Handley
84.Anita Honore
85.Helen Jones
86.Joan Keppler
87.Arlene Levenson
88.Jamesie McEntyre

89.Betty Powell
90.Juanita Rothweiler
91.Lila Rusek
92.Vivian Sabey
93.Betty Smiley
94.Debra Smitherman
95.Betty Strohm
96.Lizzie Thompson
97.Tina Trotter
98.Jacquelyn Uhlman
99.Joan Voorhees
100.Elisa Walker
101.Vanessa Walton
102.Michelle Wasserman
103.Sharen White
104.Earline Winfield
105.Pamela Berry
106.Virtis Blevins
107.Minnie Burcham
108.Marcella Burke
109.Maria Colon
110.Lola Davis
111.Barbara DeForest
112.Dollie Greenwood
113.Cynthia Jackson
114.Cynthia King
115.Patricia Little
116.Dawn Lowdseth-Dana
117.Madelene McCaul
118.Linda Meyer
119.Patricia Murphee
120.Gwen Penson
121.Debbra Powell
122.Elaine Sidberry

A-3
123.Carol Skeif
124.Juanita Tamez
125.Barbara Twitty
126.Myrna Wedemeier
127.Sandra
Winkelspecht
128.Loretta Bush
129.Dorothy Caldwell
130.Lori Canorro
131.Sandra Cardinal
132.Judith Caskey
133.Patti Lee Caudle
134.Dora Sabedra
Chavira
135.Caroline Cole
136.Carolyn Coon
137.Deloris Davis
138.Donna Davis
139.Willie Mae
Davis-Williams
140.Anna Dixon
141.Carolyn Dixon
142.Debbie Dunn
143.Brenda Edwards
144.Benedicta Espanol
145.Teresa Ford
146.Joyce Fuller
147.Maria Garcia
148.Gladys Jeanette
Garner
149.Patricia Garrett
150.Linda Gray
151.Sharon Grover
152.Teressa Haines

153.Jackie Hill
154.Marilyn Hill
155.Christine Hinkle
156.Margaret Hocker
157.Barbara Hopes
158.Barbara Lee Hughes
159.Jo Hughes
160.Sabrina Sue Johnson
161.Geneva Jones
162.Melissa Jones
163.Barbara Kalember
164.Elaine L. Key
165.Aliscina Leach
166.Betty Leyba
167.Sheila Martin
168.Katie Maye
169.Edna Merrill
170.Karen Mize
171.Mary Ann Moore
172.Adrena Muhammad
173.Andrea Newton
174.Marilyn Oyler
175.Rhoda Padilla
176.Pushpa Patel
177.Kristin Petzold
178.Gwendolyn Reed
179.Mary Seabaugh
180.Ora Sherrell
181.Ophelia Shillingford
182.Rose Sinclair
183.Nancy Smith
184.Patricia Trotman
185.Brenda Votta
186.Roberta Washington

A-4
187.Linda White
188.Tressia Wilkerson
189.Linda Wooley
190.Myrna Anderson
191.Shirley Ayers
192.Annie Bah
193.Alice Bell
194.Phyllis Bryer
195.Belinda Calton
196.Maria Campos
197.Linda Carlson
198.Margaret Cassidy
199.Anna Commiskey
200.Edna Crook
201.Deborah Davis
202.Eula Davis
203.Helen Douglas
204.Kathie Drummond
205.Ceclia Durham
206.Audrey Dyess
207.Aldyne English
208.Audrey Freeman
209.Ella Fullerton
210.Linda Gatton
211.Louanne Graham
212.Vicky Graybeal
213.Patricia Guillory
214.Elvita Harris
215.Formeka Harris
216.Mary Heis
217.Jerrylene Holman
218.Diann Johnson
219.Geraldine Johnson
220.Patricia Kelley

221.Melissa Koroma
222.Lynda Kramer
223.Cynthia Latimer
224.Linda Learn
225.Diana Lewis
226.Charlene Lloyd
227.Kelly Lee Long
228.Mary Lott
229.Irene McAlister
230.Esther Medina
231.Janet Moody
232.Gloria Moore
233.Gail Novak
234.Hazel Roberts
235.Linda Robertson
236.Lilly Saenz
237.Nichole Schopp
238.Linda Simmons
239.Sharon Stockwell
240.Carol Stout
241.Annette Sue
242.Joyce Williams
243.Patricia Wolfe
244.Betty Berry
245.Teresa Bishop
246.Brenda Bottorf
247.Susan Byrne
248.Kathleen Clark
249.Carla Como
250.Lynn Craig
251.Victoria Deane
252.Margaret Ditty
253.Paula Estrada

A-5
254.Tasha
Finley-Crawford
255.Dorothy Fowler
256.Florence Friendy
257.Wanda Funderburk
258.Lynn Furutani
259.Dora Hodge
260.Birdie Jackson
261.Ethel Jarrett
262.Patricia Jenkins
263.Graciela Lovera
264.Evelyn Martin
265.Lois McGinty
266.Amanda Metcalf
267.Cynthia Milam
268.Estelle Moore
269.Diane Neville
270.Monica Newman
271.Gloria Oakwood
272.Marti Palmer
273.Laura Peters
274.Ann Rook
275.Jacqueline Schmidt
276.Patricia Smith
277.Doris Spetsas
278.Dana Underwood
279.Armelia Williams
280.Anita Affeldt
281.Rosemarie Arbolino
282.Shirley Arrington
283.Sarah Austin
284.Debbie Bacote
285.Deborah Bailey
286.Norma Batastini

287.Colleen Berke
288.Connie Bradley
289.Javonne Childs
290.Essie Cochran
291.Lana Coker
292.Patricia Conyers
293.Rita Derosier
294.Lana Dittrich
295.Jo Ann Ford
296.Anne Fountain
297.Christine Gorman
298.Mary T. Green
299.Valerie Hawthorne
300.Barbara Hopkins
301.Elizabeth Hunt
302.Evangelina
Huntington
303.Annette Jaremko
304.Costa Johnson
305.Darlene Johnson
306.Margaret Johnson
307.Yvonne Johnson
308.Barbara Jones
309.Lou Jones
310.Rosilyn Jones
311.Mattie Letsinger
312.Dena McFall
313.Myra McGriff
314. Shirley Ann Miller
315.Lula Moffett
316.Deana Moran
317.Loreli Thagon Murray
318.Donna Nahra
319.Loretta Newby

A-6
320.Elaine Nienaber
321.Sharon Olson
322.Gayle Pelella
323.Elizabeth
Richardson
324.Cora Ripley
325.Shirley Sanders
326.Martha Secharan
327. Sell
328.Deborah Skinner
329.Stephanie Smith
330.Beverly Stewart
331.Paula Strom-Sell
332.Elizabeth Virola
333.Kim Waldrop
334.Mickey Watlington
335.Jacqueline Weeks
336.Catherine
Whittleton
337.Thomasena
Williams
338.Marilyn Alexander
339.Cathy Anderson
340.Marcia Anderson
341.Zimely Andrus
342.Joan Baker
343.Barbara Benson
344.Gail Blanchard
345.Frances Gilbreth
Brown
346.Martha P. Brown
347.LaTanya Burns
348.Pearle Cameron
349.Helen Campbell

350.Clementine Carson
351.Randa Catchings
352.Deborah Cokely
353.Janet Collins
354.Christine Conner
355.Patricia Cooper
356.Tammy Crews
357.Beverly Denney
358.Melinda Estep
359.Christine Farnsworth
360.Selma Finley
361.Joyce Finney
362.Helen Freeney
363.Pauline Garcia
364.Lurlia Glaze
365.Brandee Goldsmith
366.Sandra Grafton
367.Denise Grant
368.Mammie Grice
369.Sherry Hall
370.Vickie Graybeal
Hanks
371.Fay Harless
372.Deborah Harless
373.Gloria Harris
374.Tena Hebert
375.Angela
Hicks-Hickman
376.Sharyell Highland
377.Lillie Holliday
378.Richard (Estate of
Jane Hazel Hoover)
Hoover
379.Leslie Isaacs

A-7
380.Catherine Jackanic
381.Martha Jackson
382.Mary Jackson
383.Patricia Johnson
384.Marie Kempel
385.Sulema Klumpe
386.Nancy Lacey
387.Julia Lamey
388.Phylliss Larsen
389.Frances Licata
390.Merlinda Martinez
391.Cherian McCartney
392.Rhonda McConnell
393.Sharon Morgan
394.Charmaine Odom
395.Gwendolyn Parker
396.Carol Rector
397.Brenda Robinson
398.Carolyn Rose
399.Glenda Roseburrow
400.Violet Sadaka
401.Martha Sahnow
402.Donna Shelman
403.Mark (Estate of
Karin Bell) Shoop
404.Katherine Shyne
405.Olga Silva
406.Pinta Simnungkalit
407.Sheila Young
Strawther
408.Vanessa Thomas
409.Altressa Townsel
410.Elizabeth Travers
411.Naomi Walker

412.Sandra Walker
413.Eleanor Ward
414.Susan Warman
415.Patricia Weeks
416.Karla White
417.Lettie White
418.Hyla Wilson
419.Ronwyn Woo
420.Margaret Woodruff
421.Myrtle Yslava
422.Shirley Zimmer
423.Pamela
Blalock-Carter
424.Sheila Johnson
425.Nanci Price
426.Chenetta Robinson
427.Dorris Morrow
428.Rosalind Anderson
429.Phyllis Armstrong
430.Janice Baker-Dibella
431.Shirley Banks
432.Theresa Benjamin
433.Celia Berglund
434.Dawn Birkinbine
435.Karen Bosch
436.Gertrude Brandon
437.Rita Bredice
438.Willie Browder
439.Barbara J Brown
440.Linda Clemons
441.Patience Cole
442.Edna Collins
443.Linda Coombs
444.Catherine Del Prete

A-8
445.Jacquelyn Diamond
446.Myrna Egbufoama
447.Sheliah
Evans-Williams
448.Diane Faulcon
449.Diane Ford
450.Leila Futrell
451.Vickie Garrison
452.Linda Good
453.Mildred Hall
454.Bernice Hannon
455.Sharon Henry
456.Lorene Honorable
457.Virginia Hubbs
458.Susan
Isham-Crisman
459.Shirley Jones
460.Olivia Jones
461.Mary Jones
462.Linda Keleher
463.Jamila Khayoumi
464.Mary Knight
465.Debra Lablance
466.Jennevie Lofton
467.Lenora Mairidith
468.Alice McAloon
469.Wanda McLendon
470.Saverna Moody
471.Debra Morgan
472.Martha Ollison
473.Margarette Olsen
474.Magdeline Payton
475.Michelle Pine
476.Meryl Rabinowitz

477.Peggy Ramos
478.Marjorie Ray
479.Cynthia Rice
480.Yolanda Richardson
481.Elfrida Roberts
482.Melissa Robinette
483.Donna Royer
484.Betty Smith
485.Evelyn Sterling
486.Bertha Swan
487.Cheryl Taylor
488.Ernestine Terry
489.Martha Tieken
490.Olga Trujillo
491.Dorothy Vowell
492.Judith Wagner
493.Lizzie Walker
494.Lula Williams
495.Dorothy Williams
496.Mary Willis Mackey
497.Lori Barnett
498.Diane Black
499.Mary Bohannon
500.Janice Boyle-Coulter
501.Louise Braddock
502.Carmen Brantley
503.Helen Chandler
504.Earlene Crews
505.Mary Crowe
506.Sandra Dotson
507.Dorothy Dunlap
508.Brenda Ennis
509.Dora Flores
510.Marianne Folise

A-9
511.Sylvia Garza
512.Barbara Goodman
513.Barbara
Halvorson-Magee
514.Jennifer Harvey
515.Robin Harvey
516.Margaret Heri
517.Deborah Holley
518.Cheryl Holquist
519.Betty Hurst
520.Elizabeth Isom
521.Carolyn Jefferson
522.Debra Jibri
523.Cynthia Johnson
524.Judy C. Johnson
525.Peggy Johnson
526.Veronica Johnson
527.Nancy Katz
528.Betty Kersey
529.Susan Kester
530.Judy Lane
531.Brenda Lotts
532.Penny Love
533.Yolanda Mares
534.Diana Matte
535.Mary McCawley
536.Linda McKannan
537.Michelle Meggie
538.Margaret Ann
Melton
539.Connie Michels
540.Ellie Moore
541.Ella Mops
542.Catherine Morris

543.Glenda Oden
544.Sylvia Olmstead
545.Kathleen Planitzer
546.Kim Provitt
547.Helen Reed
548.Joanne Roesler
549.Jeryl Scott
550.Belinda Shepard
551.Franchetta Starnes
552.Donna Tiner
553.Dorothy Trujilo
554.Stephanie D. Walker
555.Joyce
Wheeler-Thornton
556.Betty Whitten
557.Patricia Wilcox
558.Barbara Williams
559.Ruth [Note: Listed on
Complaint twice]
Allen
560.Linda Avila
561.Martha Baez
562.Marilyn Black
563.Joan Butcher
564.Darla Cloud
565.Maritza Colon
566.Gabriela Constantino
567.Lauren Evans
568.Wanda Paynter
569.Benita Rush
570.Marianne Schulten
571.Mary Smart
572.Christine Smith
573.Brenda K. Turney

A-10
574.Vickie Gammons
575.Reeshemah Adams
576.Sarah Bales
577.Mary Bishop
578.Patricia Blockus
579.Linda Bowman
580.Rosa Boyd
581.Sharon Cauchy
582.Charlene Christy
583.Melody Cole
584.Florida Coleman
585.Elizabeth Costlow
586.Joan Elby
587.Wanda Fike
588.Carol Gorrell
589.Vivian Grant
590.Alma Hamm
591.Beverly Hartman
592.Nancy Holguin
593.Peggy Horton
594.Wanda Hughes
595.Marilyn Lucas
596.Bertha Marshall
597.Addie McFarland
598.Sally Miller
599.Twinkle Morrozoff
600.Patricia O'Dell
601.Shirley Parker
602.Kathleen Pavlosky
603.Janice Pereira
604.Lillie Phillips
605.Freda Ragusi
606.Kathleen Sainato
607.Charlene Stafford

608.Janie Stokes
609.Sheran Stump
610.Sonya Taylor
611.Bobbie Thomas
612.Susan Tilley
613.Anita Weld
614.Elosie Wright
615.Emily Zboyovsky
616.Doris Cater
617.Sharlene Chapman
618.Barbara Clifton
619.Robin Dean
620.Lisa Lynne Dews
621.Marci Dobson
622.Nadine Fisher
623.Kathy Goins
624.Fannie Harper
625.Jo Ann Hughes
626.Barbara Kanedy
627.Jomarie Kilpatrick
628.Trina Love
629.Hattie McIntosh
630.Georgina Mettler
631.Barbara Miller
632.Sandra Newell
633.Norma Potter
634.Mary Sain
635.Patricia Seaman
636.Anne Snipes
637.Donna Thorp
638.Rosemary
Toelcke-Smith
639.Nancy Watters
640.Murlena Williams

A-11
641.Ada Acain
642.Eliza Addison
643.Joanne Beck
644.Mary Brattain
645.Linda Bubert
646.Janet Cable
647.Norma Cauthen
648.Jennie Daniels
649.Ann Fivecoate
650.Clyretha Grayson
651.Barbara Green
652.Janice Harden
653.Charlene Holmes
654.Sandra Kerr
655.Janice Krivak
656.Brenda Lainhart
657.Shirley Mae Landers
658.Mary Laureson
659.Leanne Layne
660.Rosalind Levelino
661.Toni Mitchell
662.Patty Montpetit
663.Ida Reid
664.Vikkilee Reynoldson
665.Ricki Rogers
666.Janet Saylor
667.Anne Seaton
668.Juana Spight
669.Betty Stanford
670.Dolores Tafoya
671.Brenda Vann
672.Dawn Williams
673.Susan Wilson
674.Toni Wright

675.Loretta Amanners
676.Margene Bowman
677.Mary Brewer
678.Palma Bruno
679.Sheila Davis
680.Josephine Dollarhide
681.Wanda Fitzpatrick
682.Mary Gorie
683.Janet Hansen
684.Ivy Hutzler
685.Peggy Jenkins
686.Kalyphall Kivq
687.Anita Losoya
688.Barbara Luke
689.Arthleen McDOWELL
690.Kathleen McFARLIN
691.Mary Melching
692.Linda Miller
693.Vianna Moore
694.Janine Patat
695.Patricia Phillips
696.Rosa Rodriguez
697.Patricia Romagnoli
698.Jessie Russell
699.Linda Shelley
700.Gloria Small
701.Debra Stewart
702.Essie Allen
703.Beryl Anderson
704.Bea Bilek
705.Vana Brown
706.Trina Butler
707.Annie Carter
708.Sheila Clouser

A-12
709.Pariscilla Cook
710.Marretta Dunk
711.Mary Ferrell
712.Neta Few
713.Constance Hudson
714.Mary Isbell
715.Eva Jump
716.Celestine Loveless
717.Patricia Maldonado
718.Marie Marino
719.Juanita Randall
720.Vivian Satchel
721.Michelle Teague
722.Phillis
Tolson-Williams
723.Rose Williams
724.Blanche Woodley
725.Neberta Ackron
726.Julia Bowman
727.Phyllis Brent
728.Judith Brooks-Ware
729.Jimella Brown
730.Verlean Brown
731.Victoria Butenhoff
732.Josie Calhoun
733.Valerie Clem
734.Betty Dooley
735.Ramona Ellis
736.Jean Elson
737.Lena Esquivel
738.Phyllis Faller
739.Michele Finney
740.Jeanette Gant
741.Guadalupe Garcia

742.Zeina Ghandour
743.Celestine Gibbs
744.Millie Grant
745.Ruthie Griffin
746.Denise Harrell
747.Josie Harrell
748.Shirley Harris
749.Farah Hodges
750.Gale Hutchinson
751.Joann Johnson
752.Vickie Lawler
753.Wendy Lynch
754.Yvette Madsen
755.Sonya Manigo
756.Verda Miller
757.Betty Mitchell
758.Iola Mitchell
759.Barbara Moorehead
760.Barbara Nadolski
761.Debra Newman
762.Marisol Nunez
763.Linda Owens
764.Robin Petit
765.Gale Shemwell
766.Edna Mae Silvester
767.Laverne Simmons
768.Esther Skrine
769.Theresa Smith-Allen
770.Betty Steffen
771.Romma Stepetin
772.Nancy Tedesco
773.Rosyna Toure
774.Magda Trager
775.Jodi Veer

A-13
776.Minerva Velaquez
777.Rudolf Ware, Jr.
778.Sabrina Whitaker
779.Angela Williams
780.Rose Williams
781.Renee Wilson
782.Jacqueline Wunder
783.Barbara Andrews
784.Gearldean Couch
785.Diane Forman
786.Deborah Foster
787.Shirley Garcia
788.Alice Marrone
789.Francine Peregoy
790.Millicent
Zimmerman
791.Rosa Brown
792.Mignon Callaway
793.Christine Ferguson
794.Mary Ford
795.Barbara Golden
796.Karen Jacobs
797.Claire Mattison
798.Annie Nash
799.Gladys Nelson
800.Ethel Osby
801.Kathy Pinnell
802.Patty Scott
803.Willie
Shahraki-Heard
804.Dianne Taylor
805.Pearl Johnson
806.Grace Johnson
807.Gloria Larkin

808.Maggie Livingston
809.Brenda Maise
810.Pamela May
811.Denise Meeks
812.Patricia Mercer
813.Mary Merriman
814.Janet Milliron
815.Jovita Montoya
816.Linda Nyman
817.Lois Pauly
818.Betty Reed
819.Alta Risk
820.Patricia Rohrig
821.Marian Scott
822.Ethel Stanley
823.Amonzie Tillman
824.Maize Wallace
825.Eileen Whisenant
826.Jesselyne Williams
827.Shelia Baker
828.Linda Barnes
829.Marita Berry
830.Patricia Bilbrey
831.Gloria Bolden
832.Bennie Carmon
833.Frances Carr
834.Judith Colbert
835.Yvonne Collins
836.Maria Del Carmen
Sanchez
837.Bettie Dixon
838.Miriam Evans
839.Oire George
840.Robin Graham

A-14
841.Josephine Holliman
842.Dasie Mae Howard
843.Annette Jackson
844.Cheryl Jackson
845.Dorothy Jackson
846.Linda Johnson
847.Jerelene Johnson
848.Annie Johnson
849.Juanita L Jones
850.JoAnn J Jones
851.Linda Lewis
852.Carolyn Lott
853.Bonnie MCCallum
854.Eugenia McClay
855.Jennette McDonald
856.Brenda Medley
857.Saverna Moody
858.Donna Morris
859.Lisa Nethery
860.Rowena Ozanne
861.Artinia Pappineau
862.Linda Perry
863.Nancy Powell
864.Katherine Primrose
865.Miriam Ramirez
866.Judith Richey
867.Frances Roberts
868.Jewell Scott
869.Bobbie Shields
870.Shirley Smith
871.Karen R Smith
872.Glenda Smith
873.Mary Springer
874.Sharon Sweeney

875.Joyce Thalacker
876.Earlene Thompson
877.Mae Thornton
878.Louvenia Turner
879.Rose Walker
880.Bernia Walker
881.Gail Washington
882.Judith Welch
883.Felicia Williams
884.Cornelia Williams
885.Callie Williams
886.Sheilah Wyatt
887.Ellanor Akers
888.Julia Andrews
889.Joy Balderrama
890.Deniece Barrett
891.Mary Botteron
892.Linda Brandau
893.Barbara Bray
894.Annie Burgess
895.Barbara Butler
896.Christine Calloway
897.Linda Carter
898.Linda Collie
899.Peggy Cosby
900.Carolyn Crawford
901.Frances D'Alessio
902.Shirley
Daniel-Rundberg
903.Susie Deal
904.Fannie Eames
905.Shirley Evans
906.Ruth Fields
907.Carol Fisher

A-15
908.Jean Fletcher
909.Hope Gallegos
910.Teresa Garrison
911.Paulette Gipson
912.Linda Glenn
913.Theresa Gregory
914.Diana Harp
915.Harold Henry III
916.Judith Hilliard
917.Ronald Holt
918.Shirley Howard
919.Sushma Jain
920.Danelle Jannazzo
921.Christina Johnson
922.Stephanie Johnson
923.Lola Jones
924.Bettie Junkin
925.Annette Kincaid
926.Geraldine Kirk
927.Eileen Leeth
928.Gladys Mathews
929.Paula McGee
930.Miriam
Mikolajewski
931.Anita
Miller-Maxwell
932.Naomi Oden
933.Helenore Owens
934.Saundra Patterson
935.Susan Peterson
936.Carla Porterfield
937.Lillie Powell
938.Jolene Quinn
939.Arlice Randolph

940.Jacquelyn Reese
941.Pauline Renfroe
942.Cathy Roberts
943.Janet Rose
944.William Rowlands
945.Reda Samy
946.Shirley Sanders
947.Donna Schaeffer
948.Beulah Seal
949.Susan Shaffer
950.Ester Spencer
951.Juatassa Stephens
952.Ellen Stern
953.Marcella Sy-Smith
954.Linda Walker
955.Margaret Walker
956.Delois Walton
957.Monica Washington
958.Margie Williams
959.Sherry York
960.Judy Zippi
961.Sharon Bradley
962.Yvonne Campbell
963.Janell Cech
964.Rhonda Chafin
965.Gloria Clark
966.Maggie Combs
967.Dorothy Connolley
968.Debra Cornish
969.Arnetta Curry
970.Barbara Cutcher
971.Helene Fowler
972.Geraldine Hayes
973.Janet Henderson

A-16
974.Della Hutchinson
975.Joretha Kellum
976.Bertha Leonetti
977.Judy Mackey
978.Marie Martinez
979.Margie Montgomery
980.Gabrielle Nardone
981.Jane Oden
982.Christine Oliver
983.Angelea Panos
984.Joan Picha
985.Ann Poague
986.Genese
Pugh-Williams
987.Elsie Richards
988.Terry Roby
989.Kelly Ross
990.Pearl Stokes
991.Evelyn Thomas
992.Alberta Thompson
993.Sandra Thon
994.Denise Vital
995.Teresa Wright
996.Toby Barnes
997.Linda Black
998.Carolyn Bruner
999.Melinda Clinard
1000.Wanda Correia
1001.Florence Dapo
1002.Patricia Davis
1003.Patricia Easterling
1004.Helen Einspahr
1005.Beverly Flagg
1006.Carla Gaskins

1007.Wanda Hatchett
1008.Suzanne Johnson
1009.Odessa Johnson
1010.Alice Key
1011.Debbie Kridler
1012.Ethel Lynch
1013.Barbara McKoy
1014.Lagha Mozoon
1015.Annie Nixon
1016.Brenda Pettigrew
1017.Annie Quick
1018.Teresa Rhoades
1019.Sharron Siler
1020.Glenda Simpson
1021.Mary Smith
1022.Willette Thomas
1023.Linda Thomposon
1024.Calrene Truax
1025.Martha Walker
1026.Shirley Williams
1027.Sheena Williams
1028.Susie Willis
1029.Barbara Wright
1030.Margaret Wynn
1031.Kathy Youmans
1032.Vera Copeland
1033.Geraldine Heine
1034.Frances Inserra
1035.Maria MacArthur
1036.Barbara McNeil
1037.Peggy Miller
1038.Joyce Phillips
1039.Charlotte Poley
1040.Bertha Sills

A-17
1041.Susan Smith
1042.Bobbie Talton
1043.Linda Taylor
1044.Johnella
Washington
1045.Bettie Weaver
1046.Carolyn Wilcher
1047.Claudine
Woodberry
1048.Teresa A. Blair
1049.Denise Boucher
1050.Nemesia Pascual
Brown
1051.Rose Mary
Burroughs
1052.Sherry Burton
1053.Kathryn Loy
Cooper Shorter
1054.Dorothy Marie
Crabtree
1055.Hope S. Crabtree
1056.Debbie J. Davis
1057.Rhonda Leigh
Dobson
1058.Christine Mary
Drazkowski
1059.Phyllis Ann
Flinchpaugh
1060.Martha Diane Gay
1061.Teresa Marie
Gildersleeve
1062.Rebel Lee Guertin
1063.Darlene Carnley
Havard

1064.Molly Kathleen
Hirschfield
1065.Karen M. Hudson
1066.Lavonne Hutchinson
1067.Ellen Suzanne
Johnson
1068.Linda A. Lavin
1069.Jeanette Leary
1070.Shirley J. Leggate
1071.Elizabeth A. Leonard
1072.Loretta M. Locklear
1073.Tammy Ann
Muscarella
1074.Lyzette M. Colon
Nieves
1075.Elizabeth Louise
Parrish
1076.Catherine Porter
1077.Dawna K. Prater
1078.Margarita Y.
Quintana
1079.Joanna Mary
Reyes-Rivera
1080.Christina Lynn
Robertson
1081.Milda Jangar Robles
1082.Revolon Schmidt
1083.Glenda Nell Scott
1084.Donna Sue
Sebastian
1085.Bonnie Lee Selby
1086.Kelsey Caroline Sims
1087.Mary E. Smith
1088.Nicole Spain

A-18
1089.Joan C. Splendido
1090.Victoria Rae
Sylvester
1091.Victoria Janna
Taylor
1092.Bonnie L. Waltz
1093.Ethel R. Williams
1094.Judith Adkins
1095.Ruby Allen
1096.Sandra Alligood
1097.Mary Alvarez
1098.Crystal Block
1099.Phyllis Bouldin
1100.Virginia Brown
1101.Marga
Brown-Champion
1102.Cynthia Buxie
1103.Gloria Candido
1104.Cynthia Carpenter
1105.Maria Champion
1106.Gwendolyn
Clemons
1107.Lella Collins
1108.Sylvia Collins
1109.Donna Cruea
1110.Vivian Crum
1111.Donna
Cunningham
1112.Patrcia Curtis
1113.Lucille Daly
1114.Mary Davis
1115.Dolores Dickerson
1116.Eva Dixon
1117.Shirley Dobbs

1118.Sheila Dunn
1119.Rosemary Dupre
1120.Emma Evans
1121.Barbara Ferguson
1122.Gilda Fletcher
1123.Nina Foree
1124.Brenda Freeman
1125.Leavinia Genovese
1126.Ima Granger
1127.Beverly Gribble
1128.Paulette Hardy
1129.Rosemary Hasler
1130.Elizabeth Hendree
1131.Mary Hughes
1132.Mary Ingram
1133.Pricilla Jeffers
1134.Shirley Kizzie
1135.Noreen Krier
1136.Donna Lugg
1137.Karen Sue
McKernan
1138.Susan Moore
1139.Katie O'Neal
1140.Quintana Onubogu
1141.Theresa Pavis
1142.Angle Pitts
1143.Susan Reed
1144.Dorothy Scott
1145.Lois Short
1146.Yolanda Simon
1147.Emma Smith
1148.Lue Smith
1149.Sandra Stallings
1150.Esther Steckman

A-19
1151.Joan Thompson
1152.Sara Trepanier
1153.Joan Trosper
1154.Carrie Tyson
1155.Kim Tyson
1156.Bonnie Utynek
1157.Janet Vinson
1158.Tony Welch
1159.Shacretta Williams
1160.Gertrude
Zdanowicz
1161.Margaret Gilbert
1162.Sheila Gonzalez
1163.Virginia Gooding
1164.Frances Gour
1165.Beverly Gray
1166.Katha Green
1167.Anna
Habermehl-Schultz
1168.Sharon Haden
1169.Delphine Hamilton
1170.Glenda
Hansbruagh-Harris
1171.Margaret Harness
1172.Hollie Harrell
1173.Kathy Harris
1174.Therese Hatcher
1175.Edith Headen
1176.Theresa Heath
1177.Linda Hitchcock
1178.Kay Hoag
1179.Cherilyn Holton
1180.Constance Hopple
1181.Caroline Houston

1182.Portia Hudson
1183.Darlene Idleburg
1184.Carolyn Jackson
1185.Vivian Jefferson
1186.Patricia Jester
1187.Sun Hui Johnson
1188.Sue Johnson
1189.Eunice Johnson
1190.Alfrenella Johnson
1191.Colleen Jones
1192.Josephine Keller
1193.Maebel King
1194.Christi King
1195.Annette Knight
1196.Jill Korte
1197.Charlotte Landers
1198.Sandra Lawrence
1199.Annie Lay
1200.Mary Leach
1201.Angela Licavoli
1202.Maggie Lingston
1203.Peggy Little
1204.Robbie Littleberry
1205.Jennifer Lockett
1206.Sharon Love
1207.Helen Lumbo
1208.Gisela Lusa
1209.Clara Owens
1210.Margaret Beaty
1211.Nellie Davis
1212.Beverly Legg
1213.Pamela Marshall
1214.Inell Melton
1215.Althea Newbern

A-20
1216.Cindy Phetteplace
1217.Maria Punches
1218.Jackie Scales
1219.Lorene Smith
1220.Sandra Taylor
1221.Deborah Tolliver
1222.Cleta Witt
1223.Mary Armstrong
1224.Wilihmena Arnold
1225.Judy Brandy
1226.Diana Brodie
1227.Trudea Brooks
1228.Bety Catchings
1229.Margaret Childs
1230.Clarissa Coleman
1231.Kathy Connolly
1232.Kimberly Crider
1233.Helen Doerner
1234.Musu Draper
1235.Viola Faria
1236.Vicki Florio
1237.Patricia Fraser
1238.Marilyn Gerdes
1239.Debra Graham
1240.Linda Hall
1241.Glenda Huskey
1242.Francis Jefferson
1243.Vicotoria Johnson
1244.Annie Johnson
1245.Reba Kessler
1246.Maude Kimble
1247.Sonya Lewis
1248.Janet Lowery
1249.Sharon Markham

1250.Mary McBride
1251.Charleeta
McFarland-Pate
1252.Belinda McLeod
1253.Mary Mitchell
1254.Cassandra Powell
1255.Dawn Pulliam
1256.Anna Schaffer
1257.Jacquelyn
Schlessman
1258.Lisa Seller
1259.Donna Short
1260.Patricia Simmons
1261.Doris Smith
1262.Beverly VanRuden
1263.Viola Vinyard
1264.Pansy Voss
1265.Kimberly Waltner
1266.Kathleen Weber
1267.Kathleen Athey
1268.Evelyn Buffins
1269.Debora Bullington
1270.Darlene Chittick
1271.Gladys Cooper
1272.Christi Crawford
1273.Ann Davis
1274.Paulette Dibibar
1275.Maria Gomez
1276.Catherine Hannon
1277.Karen Hollowell
1278.Faye Jordan
1279.Emma King
1280.Shirley Lawhorn
1281.Linda McDowell

A-21
1282.Joann Montgomery
1283.Leota Shelton
1284.Emily Sorio-Harris
1285.Carol Stephens
1286.Dorothy Ann
Tolliver
1287.Betty Walker
1288.Janice Winge
1289.Debra Louise
Wiseman
1290.Corine Alford
1291.Laura Aponte
1292.Jeanette Bland
1293.Gloria Bozeman
1294.Mary Covault
1295.Margarita Esquivel
1296.San Juana Flores
1297.Jane Gekker
1298.Anita
Hudson-Meadows
1299.Wanda Johnson
1300.Deborah Kaker
1301.Connie Lee
1302.Bessie MacConnell
1303.Gertrude Orlando
1304.Jamie Pendergraft
1305.Betty Ragan
1306.Gloria Randle
1307.Gwendolyn
Robinson
1308.Carolyn Roddy
1309.Betty Smith
1310.Gladys Stokeley
1311.Louise Webber

1312.Shirley Wellman
1313.Myra Williams
1314.Kelly Wilson-Butler
1315.Barbara J. Adams
1316.Terry M. Anders
1317.Karla D. Auld
1318.Lynda D. Barnett
1319.Kris Renee Butler
1320.Sonja Chupik
1321.Lorie Ann Coates
1322.Debra Shay Coleman
1323.Maggie R. Collier
1324.Ramona Darice
Craycraft
1325.June E. Dewitt
1326.Nadine Alese
Downing
1327.Faye Duncan
1328.Janet Sue Elenbaas
1329.Patricia Ann Fadis
1330.Violet J. Flynn
1331.Arrie Theresa Gehan
1332.Trina Marie Gibson
1333.Helen Faye Golden
1334.Sheila Green
1335.Carolyn Ruth Harvel
1336.Cheryl Hayes
1337.Melissa A Haynie
1338.Ninfa Cevallos
Hinojosa
1339.Brenda C. Hobbs
1340.Pamela Holloway
1341.Mary Jean Holt
1342.Karen Sue Hornick

A-22
1343.Carol Huntowski
1344.Shirley A. Jackson
1345.Sharon Elaine
Jacobsen
1346.Corinne Penelope
Jeffers
1347.Delores Johnson
1348.Peggy Ann Kaiser
1349.Geraldine T.
Kopczenski
1350.Vicki A. Laytart
1351.Cheri L. Layton
1352.Antonia Lopez
1353.Mary Ann Lucas
1354.Kathy Lynn
Lukenbill
1355.Mary P.
MacDowell
1356.Wamda McKinney
1357.Rosario
Mendez-Meza
1358.Yvonne Mitchell
1359.Ronda L. Morez
1360.Brenda Lee
Murphy
1361.Mary Helen
Navarro
1362.Diana Lynn Powers
1363.Joyce Pride
1364.Linda G. Privett
1365.Sherry Ellen Mae
Ratliff
1366.Laura Lee
Reynolds

1367.Vicky Reynolds
1368.Ruth Ann Rich
1369.Novalee Robbins
1370.Betty J. Robinson
1371.Janice Elaine Roque
1372.Frankie G. Rose
1373.Judith Ann Ruf
1374.Kyucha Samara
1375.Debra Bennice Scott
1376.Mary M. Smith
1377.Nancy A. Smith
1378.Lisa Jane Soape
1379.Darlene Toledo
1380.Wanda Kay Walter
1381.Emma Wanicki
1382.Ann Louise
Waskiewicz
1383.Alice B. Wells
1384.Mary C. Whitfield
1385.Jennie A. Williams
1386.Mary E. Williams
1387.Kathy Lynn Wood
1388.Sharon A. Wright
1389.Deann Pierce
1390.Diane Bell
1391.Diane Beringer duplicative plaintiff
1392.Jane Doane
1393.Linda Ellis
1394.Debra Harris
1395.Sallie Holmes
1396.Valerie Knight
1397.Terri Lindholm
1398.Janice McNeil

A-23
1399.Linda Porter
1400.Michele Sharp
1401.Josie Sterling
1402.Patricia Storey
1403.Marie Sykes
1404.Alvira Williams
1405.Brenda Anderson
1406.Sharon Beerbower
1407.Joyce Clark
1408.Pamela Cogar
1409.Urmil Dhawan
1410.Jennifer Dixon
1411.Katherine Frazier
1412.Paige Harper
1413.Sheila Hayes
1414.Karen Huffman
1415.Eddie Kilgore
1416.Anna Kilgore
1417.Kathy
Mckee-Minard
1418.Karen Meyer
1419.Tabatha Norman
1420.Lela Odom
1421.Susan Salvatore
1422.Joan Sonnier
1423.Suzanne Steldt
1424.Pearlie Stewart
1425.Sharon Stull
1426.Cheryl Wotton
1427.Carolyn Young
1428.Charlotte
Zimmerman
1429.Regina Zornes
1430.Beverly Abrolat

1431.Valerie Adams
1432.Myra Adkins
1433.Bonnie Albin
1434.Norma Alvardo
1435.Kim Anderson
1436.Velma Baker
1437.Shirley Baker
1438.Elizabeth Banks
1439.Jamara Bankston
1440.Barbara Barnett
1441.Frances Barrows
1442.Tina Beavers
1443.Barbara Beckett
1444.Mary Bethel
1445.Shirl Bietry
1446.Ida Birmingham
1447.Barbara Blair
1448.Mary Bledsaw
1449.Katherine Bradley
1450.Pennie Branz
1451.Rosa Brooker
1452.Sondra Brown
1453.Marie Brown
1454.Karen Brown
1455.Doris Brown
1456.Beulah Brown
1457.Ada Builes
1458.Eddie Burr
1459.Amarilys Caballero
1460.Margaret Campbell
1461.Eleanor Campbell
1462.Vicki Carey
1463.Ardis Carmichael
1464.Judie Jones

A-24
1465.Betty Atkins
1466.Nandini Bellara
1467.Cynthia Bienemy
1468.Josephinie Brown
1469.Angela Byrd
1470.Susan Craycraft
1471.Mable Donald
1472.Diane Draper
1473.Bonnie Fultz
1474.Donna Gentry
1475.Shirley Hale
1476.Gwendolyn Holder
1477.Deborah Jamerson
1478.Jacqualynn
Murphy
1479.Carolyn Nash
1480.Kasum Patel
1481.Marjorie Ramirez
1482.Barbara Tadlock
1483.Roalie Woods
1484.Darlene Anderson
1485.Penny Boyd
1486.Gail Breedlove
1487.Joyce Bryant
1488.Marilynn Bunnell
1489.Sherry Dufrane
1490.Debra Duke
1491.Luella Forbis
1492.Sondra Goldfarb
1493.Mary Harris
1494.Ora Ann Hayes
1495.Linda Hobson
1496.Betty Howard
1497.Ronda Kent

1498.Fredida Lach
1499.Cathy Martin
1500.Linda Merritt
1501.Dianna Miller
1502.Joyce Mills
1503.Yvonne Owens
1504.Maxzima Pagan
1505.Tonia Pelletier
1506.Dale Peters
1507.Nancy Reece
1508.Louise Royal
1509.Beverley Summers
1510.Harriett Terrell
1511.Dorothy Winchester
1512.Rebecca Wunder
1513.Mary Browning
1514.Mary Brue
1515.Carol Burghardt
1516.Bertha Calhoun
1517.Ann Cantone
1518.Diane Cantone
1519.Carolyn Capaniro
1520.Susan Carey
1521.Ruth Carter
1522.Marilyn Chisholm
1523.Rosie Chittom
1524.Barbara Chrismer
1525.Marie Christian
1526.Judy Cline
1527.Ezraline Cochran
1528.Sheila Comegys
1529.Gail Conner
1530.Carie Craigen
1531.Maria Cruz

A-25
1532.Teresa Davenport
1533.Lavonia Davis
1534.Robbie Dean
1535.Janet Decker
1536.Donna Dickerson
1537.Charlotte Dixon
1538.Lola Dixon
1539.Ellen Dorsey
1540.Brenda Dowd
1541.Amalia Duckwall
1542.Wanda Egbert
1543.Joanne Englerth
1544.Rose Jenkins
1545.Linda Long
1546.Lauren Ortega
1547.Theresa Pratt
1548.Marie Preciado
1549.Tammy Ratcliff
1550.Sally Raya
1551.Mary Rebar
1552.Amanda Riggins
1553.Emily Riley
1554.Peggy Riley
1555.Lisa Ritchie
1556.Lucky Rives
1557.Carolean Roberson
1558.Doris Robinson
1559.Patricia Roe
1560.June Russ
1561.Denise Sanchez
1562.Mary Sanchez
1563.Joleen Sartori
1564.Patricia Saunders
1565.Deeya Adam

1566.Joyce Apodaca
1567.Helen Arnett
1568.Linda Beck
1569.Consuella Branch
1570.Anette Clayton
1571.Bonnie Cochran
1572.Susan Deluney
1573.Audrey Fletcher
1574.Bertha Gomez
1575.Ingrid Harper
1576.Diana Jordan
1577.Kathy LaFortune
1578.Anna LaGambina
1579.Cherline Lanning
1580.Tammi Mangan
1581.Vivian McKinsey
1582.Janice Michalowski
1583.Colleen Mitchell
1584.Julia Morris
1585.Vicki Earl Morris
1586.Diantha Nicholson
1587.Margie Oden
1588.Annie Phillips
1589.Oretha Reese
1590.Marcy Schlesinger
1591.Katherine Seibert
1592.Debra Simmons
1593.Donna Townsend
1594.Rosemary Trujillo
1595.Jimmi Vassar
1596.Annabelle Walden
1597.Robin Wiese
1598.Judy Wiliams
1599.Alice Wilkes

A-26
1600.Debra Wilson
1601.Wittman Carol
1602.Jean Casper
1603.Litton Cathy
1604.Crystal Clark
1605.Elaine Crysler
1606.Lillie Davis
1607.Pamela Foster
1608.Debra Hopkins
1609.Sadie Kyles
1610.Debbie Leblang
1611.Olga Rosario
1612.Brenda Smith
1613.Josephine Warren
1614.Katherine Barzar
1615.Pamela Campbell
1616.Gayle Dirksen
1617.Catrina Eimer
1618.Barbara Ells
1619.Janet Fick
1620.Mary Galason
1621.Anita Gay
1622.Georgia Haddock
1623.Kimberly Hardy
1624.Ella Harris
1625.Delores Howard
1626.Dorothy Johnson
1627.Lois Kratzner
1628.Hazel Law
1629.Cindy Parsons
1630.Patricia Pinyan
1631.Betty Ppiersel
1632.Rosa Rodiguez
1633.Aida Rosario

1634.Jean Sauer
1635.Angelia Schilling
1636.Dorothy Schmidt
1637.Letitia Shoemake
1638.Ronda Shoemaker
1639.Joan Smith
1640.Kathleen Smithenry
1641.Racheal Stinson
1642.Louise Styles
1643.Rosetta Underwood
1644.Beth Vanderhorn
1645.Myra Veentjer
1646.Debra Warren
1647.Beverly Whisenton
1648.Ellen Williams
1649.Wendy Wintjen
1650.Edna Woodard
1651.Mary Ann
1652.Jarrica Austin
1653.Martha Brunson
1654.Marjorie Carey
1655.Eileen Deaton
1656.Virginia Desalvo
1657.Maria Fordham
1658.Mindee Gibson
1659.Sheila Hastings
1660.Linda Hayes
1661.Reatha Haynes
1662.Doris Ibarra
1663.Jearline Jackson
1664.Rachel Jessen
1665.Christine Johnson
1666.Darlene
Johnson-Adams

A-27
1667.Gloria Jones
1668.April Lake
1669.Sheila Lee
1670.Elizabeth Loredo
1671.Janet McCantis
1672.Judy Moore
1673.Mary Neal
1674.Teresa Newman
1675.Patriccia Oglesby
1676.Virginia Rivers
1677.Helen Roberts
1678.Brenda Roberts
1679.Geneva Smith
1680.Lorine
Thomas-Dendy
1681.Miriam Trezevant
1682.Janette Williamson
1683.Patricia Wilson
1684.Angela Dance
1685.Sylvia Habel
1686.Benita Jarrett
1687.Alberta Johnson
1688.Irene Lugenbeel
1689.Grace Mick
1690.Sherry Mitchell
1691.Joyce Mock
1692.Mary Muse
1693.Edith Parcell
1694.Antoinette Phillips
1695.Sheila Pridgen
1696.Christine M
Questrell
1697.Kathy P Roll
1698.Darlene Williams

1699.Merrilyn Zilbar
1700.Virginia Almeida
1701.Gayle Bergeron
1702.Rita Blanchard
1703.Eddie Jean Bradley
1704.Lee Cain
1705.Alice Cain
1706.Pamela Combs
1707.Deborah Croy
1708.Mary Emely
1709.Arva Fields
1710.Clorinda Gonzales
1711.Ennis Graham
1712.Frazine Hogan
1713.Edith Javius
1714.Betty Jennings
1715.Glenda Koenig
1716.Karen Leblanc
1717.Blanch Lemon
1718.Sheila Maginskay
1719.Patricia Ann Moore
1720.Aretta Rife
1721.Lillian Robinson
1722.Clara Robinson
1723.Linda Rodgers
1724.Lucina Silva
1725.Brinda Slaughter
1726.Sandra Strother
1727.Rachel Williams
1728.Nancy Banks
1729.Sandra Barker
1730.Carnettia Blackwell
1731.Latanya Burns
1732.Betty Dockery

A-28
1733.Linda Glasper
1734.Linda Hall
1735.Jenny Lamb
1736.Joan Menna
1737.Mary Vega
1738.Beverly Bernard
1739.Una Mae Carson
1740.Barbara Cole
1741.Chevorilynne
Dunbar
1742.Mamie Durio
1743.Gloria Freeman
1744.Patricia Goodrich
1745.Roberta Green
1746.Bernita Hall
1747.Shirley Halle
1748.Tecolia Harrington
1749.Eva Hudson
1750.Darlene Johnson
1751.Glorius Keys
1752.Angela Lewis
1753.Stella Lipori
1754.Deborah Maclin
1755.Denise Manning
1756.Mary Manson
1757.Susan McFarland
1758.Jewel Miller
1759.Sara Mullens
1760.Charlene Peden
1761.Martha Robinson
1762.Elouise Scott
1763.Virginia Blanton
1764.Andrea Moore
1765.Jeanette Pyle

1766.Betty Reed
1767.Mary Regins
1768.Myrthala Richardson
1769.Ruth Richardson
1770.Juanita Rodriguez
1771.Sandra Rodville
1772.Vickie Roseman
1773.Laurella Runkle
1774.Dorothy Rutledge
1775.Mildred Rutledge
1776.Tammy Sanders
1777.Lila Sanehi
1778.Luella Scarpitta
1779.Marilyn Schaum
1780.Sallyann Scuorzo
1781.Bonnie
Semmelmann
1782.Renee Shackelford
1783.Cynthia Sherman
1784.Ivy Shorts
1785.Nancy Simonic
1786.Margaret Simons
1787.Ruth Simpson
1788.Opal Slaughter
1789.Carrie Smith
1790.Cherryl Smith
1791.Frances Smith
1792.Ina Smith
1793.Jayne Smith
1794.Jeanne Smith
1795.Kimberly Smith
1796.Sondra Smith
1797.Christine Snow
1798.Gerald Snyder

A-29
1799.Sheila Soares
1800.Jackie Spires
1801.Angela Spratt
1802.Ruby Stafford
1803.Courtney Stalley
1804.Leora Stewart
1805.Mary Stillman
1806.Kathleen Stormer
1807.Juanitha Stovall
1808.Bobbie Stricklin
1809.Mel Strockman
1810.Ellen Strohl
1811.Gloria Suacedo
1812.Karen Sullivan
1813.Yvonne Alexander
1814.Karen Allen
1815.Nina Bell
1816.May Blake
1817.Ina Brown
1818.Mildred Ann
Brown
1819.Linda Buckley
1820.Beulah Carter
1821.Mamie Cayson
1822.Paulette Crawford
1823.Phyllis Dober
1824.Margaret Everts
1825.Patricia Fortune
1826.Darlene Franklin
1827.Sharon Fulton
1828.Marcia Genatowski
1829.Sima Hamedi
1830.Peggy Hart
1831.Charlotte Hines

1832.Rosina Howard
1833.Deborah Jenkins
1834.Linda Jones
1835.Sharon Karroll
1836.Louise Kendrick
1837.Renee Koelle
1838.Gracie Moore
1839.Tillie Olson
1840.Jeanette Paulin
1841.Lujuana Peterson
1842.Vera Reeder
1843.Beverly Rule
1844.Doretha Sampson
1845.Joe L. Sampson
1846.Georgia Sanders
1847.Dana Shilling
1848.Christine Sutton
1849.Theresa Trujillo
1850.Rudy Trujillo
1851.Cathy Verhalen
1852.Dorothy Walker
1853.Taneshia Worthean
1854.Betty Banks
1855.Patricia Bravo
1856.Ritz Brosz
1857.Patricia Brown
1858.Linda Clark
1859.Lynda Cleveland
1860.Roslalind Coble
1861.Avis Courteaux
1862.Carri Cross
1863.Jacqueline Daniels
1864.Leslie Dillard
1865.Barbara Drabant

A-30
1866.Debra Fabiano
1867.Glenda Fairley
1868.Corinne Fisher
1869.Yudora Flack
1870.Juanita Flores
1871.Shirley Floyd
1872.Ella Hampton
1873.Margaret Jackson
1874.Merle Katzenbach
1875.Michelle H Kelly
1876.Judith Litton
1877.Donna Mahanna
1878.Tammy Minor
1879.Nancy Olsen
1880.Eddie Peterson
1881.Cindy Rice
1882.Doreen Rockehad
1883.Margaret Silecchia
1884.Janet Vannoy
1885.Eva Crocker
1886.Texanna
Fernandez
1887.Carlotta Harvey
1888.Judie Hines
1889.Minnie Johnson
1890.Deborah Perkins
1891.Peggy Porter
1892.Judith Santiago
1893.Rosalind Cruz
1894.Donna Patterson
1895.Velvety Williams
1896.Debbie Elswick
1897.Alicia Epps
1898.Wyoma Estes

1899.Bobbie Evans
1900.Jannie Evans
1901.Amber Ferguson
1902.Carolyn Fielder
1903.Janice Filer
1904.Jessie Floyd
1905.Gail Fontenot
1906.Darlene Franklin
1907.Betty Fries
1908.Brenda Fuller
1909.Gloria Garcia-Ceja
1910.Delorise Garvin
1911.Jamie Gooslin
1912.Mary Gordon
1913.Elizabeth Grant
1914.Dorothy Green
1915.Lynda Green
1916.Loraine Greenhaw
1917.Aurora Guevara
1918.Lillie Haddock
1919.Brenda Hall
1920.Camelia Hall
1921.Judy Hammond
1922.Gladys Hampton
1923.Paulette Hampton
1924.Connie Hanes
1925.Priscilla Lagoy
1926.Pearlie Leigh
1927.Othell Scarso
1928.Colleen Serio
1929.Mary Shamburger
1930.Martha Shaw
1931.Shelby Shelton
1932.Sofia Shterenberg

A-31
1933.Billie Simmons
1934.Gertrude Simpson
1935.Mary Slade
1936.Susan Slagle
1937.Glenda Smith
1938.Sheila Smith
1939.Vanessa Smith
1940.Wendy Stevens
1941.Shirley Stokes
1942.Stephanie Stout
1943.Monte Strickland
1944.Ann Swigart
1945.Iva Taylor
1946.Frances Bennett
1947.Sandra Bertini
1948.Gertrude Carlson
1949.Linnea Cihura
1950.Dawn Cirrito
1951.Linda Courtney
1952.Helen Davis
1953.Lavern Frazier
1954.Hope Hare
1955.Sheila Harris
1956.Janice Hofacker
1957.Karla Hopkins
1958.Wynema Johnson
1959.Ruby Johnson
1960.Shirley Markstaller
1961.Odessa Mitchell
1962.Angela Mulichak
1963.Vanetta Pittman
1964.Yvonne Smith
1965.Vera Taylor
1966.Rebecca Wilkins

1967.May Cabil
1968.Linda Cassaro
1969.Velma Clevelle
1970.Shirley Eagle
1971.Terrell Hagey
1972.Susan Hanson
1973.Virginia Hayes
1974.Joan Hazelwood
1975.Patricia High
1976.Florance Hinton
1977.Earnestean
Holloway
1978.Lennel Hurt
1979.Gloria Jackson
1980.Shirley Jenkins
1981.Markeyta Jones
1982.Connie Mickens
1983.Tannis Miller
1984.Joanne Mosley
1985.Mercie Prevose
1986.Marilyn Ralson
1987.Dorthy Robinson
1988.Addline Spann
1989.Zilpah Weeks
1990.Bonita Williams
1991.Ramona J. Beckett
1992.Bette J. Carroll
1993.Marguerite Cook
1994.Charlene Culbreath
1995.Annie Davis
1996.Cynthia De Saeger
1997.Wilhelmia Franklin
1998.Carol Fuentes
1999.Cathy Garner

A-32
2000.Shirley M. Hall
2001.Deborah J. Hill
2002.Gayle S. Johnson
2003.Kathleen Kinsman
2004.Linda Langdon
2005.Leslie Lill
2006.Patricia Marion
2007.Leslie McHenry
2008.Rita Miley
2009.Mildred Newby
2010.Dustin Jefferson
East On Behalf of
Gena Cranford
2011.Doris Owens
2012.Jesteen Raines
2013.Gayle Roby
2014.Lerlene Taylor
2015.Geraldine Tilkins
2016.Judith Wojnovich
2017.Shirley Young
2018.Ellen Zucker
2019.Tammy Conley
2020.Nancy Cotton
2021.Kimberly
Cremeans
2022.Adele Dorsey
2023.Mary Eckerson
2024.Marilyn Horn
2025.Roxanne Lazore
2026.Nancy Littleton
2027.Susan Lomax
2028.Laura Mundigler
2029.Regina Oliver

2030.Savannah Roberson
2031.Clauda Webb-Elmore
2032.Rosalina Avenido
2033.Emma Castle
2034.Edit Demeter
2035.Edna Kuykendall
2036.Marilyn Ladson
2037.Diana Lambert
2038.Idella Lee
2039.Dorothy Lewis
2040.Candace Lizana
2041.June Lowrimore
2042.Yolanda Luckett
2043.Patricia Mabey
2044.Jeannine Maggio
2045.Patricia Marburger
2046.Alice Marrone
2047.Debra Martin
2048.Wanda Martin
2049.Rosetta
Martin-Baker
2050.Linda Mathena
2051.Lee Mattern
2052.Karen Mattingly
2053.Evelyn Mcabee
2054.Debbie McAllister
2055.Queen McIntyre
2056.Cappie McKinest
2057.Lillie McKinney
2058.Judy McNeese
2059.Sheila Merritt
2060.Patsy Miles
2061.Linda Miller
2062.Linda Montgomery

A-33
2063.Yolanda Pulk
2064.Cynthia Rathbone
2065.Florance Steele
2066.Donna Strozier
2067.Michelle
Washington
2068.Shirley
Washington
2069.Diane Watkins
2070.Lilshirley Welch
2071.Catherine Wells
2072.Rachel
White-Doncontell
2073.Edna Whylie
2074.Joann Williams
2075.Doris Wilson
2076.Ernestine Wilson
2077.Geraldine Winfield
2078.Debbie Winkler
2079.Phyllis Wolford
2080.Shirley Wright
2081.Darlene Youker
2082.Bettie Young
2083.Joyce Lubniewski
2084.Jeanne Harding
2085.Patria Heard
2086.Madline
Hendrixson
2087.Judy Henemyre
2088.Mildred Hensley
2089.Gwendolyn Herod
2090.Mildred Hicks
2091.Desiree Hobson
2092.Anica Holliday

2093.Bernice Holmes
2094.Paula Hope
2095.Debbie Huffman
2096.Norma Hurst
2097.Nadine
Jackson-Lowe
2098.Delores Johnson
2099.Jeanne Johnson
2100.Julie Jonas
2101.Gennett Jones
2102.Joyce Jones
2103.Margarite Jones
2104.Peggy Jones
2105.Anne Kates
2106.Karen Kathriner
2107.Nona Keith
2108.Sandra Kendrick
2109.Bernice King
2110.Gloria Kingsby
2111.Jean Krausert
2112.Louise McQueen
2113.Joan Patti
2114.Sonya Stevens
2115.Wendelin
Thibodeaux
2116.Marilyn Thilges
2117.Octavia Thomas
2118.Barbara Townes
2119.Marcella Traylor
2120.Althea Turner
2121.June Turner
2122.Monique Tyler
2123.Margie Valdez
2124.Louella Valenti

A-34
2125.Elanor Vanalstyne
2126.Penny Vanarsdale
2127.Joanna Vaughan
2128.Rosina Vera
2129.Diana Villarreal
2130.Annabelle Walden
2131.Donnah Wallace
2132.Dawn Warren
2133.Linda Washington
2134.Angela Aguilar
2135.Betty Allen
2136.Terry Alsayed
2137.Barbara Alston
2138.Michelle Anderson
2139.Ethel Anderson
2140.April Angle
2141.Dorothy Autry
2142.Beverly Ayers
2143.Norma Bahr
2144.Elizabeth Bailey
2145.Cheryl Baker
2146.Patricia Barbeau
2147.Helen Beatty
2148.Shirley Bedwell
2149.Arthuree Bennett
2150.Esperanza Benson
2151.Brenda Bernier
2152.Pamela Berryhill
2153.Brenda Blackwell
2154.Cecelia Bowden
2155.Charlotte Bowen
2156.Joyce Bridschge
2157.Darlein Brothers
2158.Flora Buckingham

2159.Kathryn Buckner
2160.Jacki Claus
2161.Christine Close
2162.Rosemary Crouse
2163.Linda Dakos
2164.Carol Dendinger
2165.Debra Dirks
2166.Sharon Dupuy
2167.Bonnie Flyte
2168.Lynnette Fortman
2169.Helen Olson
2170.Paulette Johnson
2171.Nancy McCarthy
2172.Debbie Ballinger
2173.Mitt Beavers
2174.June Beldaio
2175.Arleta Bright
2176.Evelyn Broadrick
2177.Tuanchai Buntyn
2178.Tracey Corley
2179.Marion Cousin
2180.Brenda Dehlinger
2181.Mable Eaddy
2182.Dianne Evans
2183.Sandra Farthing
2184.Jessie Hamblin
2185.Patricia Head
2186.Janice Hopwood
2187.Irene Jackson
2188.Forrestine Jones
2189.Gussie Miller
2190.Rose Neilson
2191.Jewel Newman
2192.Elisa Orta

A-35
2193.Anita Paterra
2194.Ollie Peters
2195.Virginia Roddy
2196.Diane Skerlak
2197.Jenell Smith
2198.Jessie Thompson
2199.Ella Woodson
2200.Martha Bachtel
2201.Lisa Brei
2202.Brenda Christian
2203.Carolyn Gansz
2204.Mayzelle Haynes
2205.Belinda Hefner
2206.Shirley McGinnis
2207.Cynthia McGraw
2208.Mabel Ocana
2209.Inez Parker
2210.Shirley Parker
2211.Ronda Pickney
2212.Catherine Pippel
2213.Sabrina Reillo
2214.Nancy Roberson
2215.Lena Rogers
2216.Francine Seidita
2217.Ethel Shelton
2218.Martha Villalba
2219.Candace Warnes
2220.Linda Watts
2221.Deborah Wood
2222.Jane E. Abbey
2223.Hiawatha
Barksdale
2224.Margaret Beech
2225.Deborah Broich

2226.Blenda Buie
2227.Lori Dawson
2228.Elaine Erdely
2229.Lorene M. Eriksen
2230.Michelle Glover
2231.Kim Holliman
2232.Mary Housley
2233.Jacqueline Jones
2234.Nancy Kaiser
2235.Brenda Lewis
2236.Debra Lise
2237.Vivian Lumpkin
2238.Betty Ripp
2239.Grace Session
2240.Shirley Widmer
2241.Catherine Worthen
2242.Martha Atkinson
2243.Patricia Black
2244.Clara Boyd
2245.Carmela Ciampa
2246.Shelly Downing
2247.Deborah Herring
2248.Rogee Jackson
2249.Deborah Adams
2250.Barbara Bishop
2251.Vertis Blevins
2252.Rochelle
Brown-Malone
2253.Brigitte Bush
2254.Brenda Buss
2255.Sandra Dalan
2256.Jami Delliquadri
2257.Isabel Diaz
2258.Juanita Douglas

A-36
2259.Staci Freeland
2260.Catherine Graham
2261.Kathy Long
2262.Mary Metcalf
2263.Cynthia Mitchell
2264.Theresa Mitchell
2265.Rita Russell
2266.Carla Sampson
2267.Laverne Samuel
2268.Jennie Selim
2269.Sheila Seltzer
2270.Carmen Soler
2271.Margaret Stewart
2272.Tonya Tyler
2273.Betty Welcome
2274.Annie Willis
2275.Carnie Woods
2276.Georgia Woodson
2277.Arlene Beckwith
2278.Suzanne
Bieniewicz
2279.Sandra Burnett
2280.Jean Casey
2281.Bernice Cassidy
2282.Anna Cresko
2283.Bernita Elko
2284.Lessie Elza
2285.Kathie Epps
2286.Luz Escalera
2287.Lella Ferguson
2288.Karen Fetherolf
2289.Yolanda Flanagan
2290.Theresa Flowers
2291.Vickie Foresman

2292.Gladys Guadalupe
2293.Martha Hicks
2294.Emma Hickson
2295.Shirley Hudson
2296.Carmella Jackson
2297.Jeanie Jurgeit
2298.Carol Kelley
2299.Susan Kennedy
2300.Donna Lewis
2301.Mary Lott
2302.Judith Morgan
2303.Michelena Parker
2304.Carol Peters
2305.Nina Porter
2306.Anna Rider
2307.Lois Rosenhahn
2308.Poonia Samuel
2309.Patricia Soskin
2310.Janice Stewart
2311.Linda Suerer
2312.Gila Van Valkenburg
2313.Dolores Weist
2314.Barbara Williams
2315.Ira Bennett
2316.Arlene Braxton
2317.Chantia Brown
2318.Loraine/Willie
Cantrell
2319.Delores Caruthers
2320.Ann Childs
2321.Sharon Clark
2322.Judy Collins
2323.Geneta Daly
2324.Barbara Davidson

A-37
2325.Sharon Dearing
2326.Mary Dicus
2327.Claudia Dorf
2328.Patricia Doyle
2329.Lavergne Hale
2330.Lawrene Jessop
2331.Rosemarie Lehman
2332.Bobbi Limburg
2333.Barbara Logan
2334.Camila Matyas
2335.Josephine
McGowan
2336.Anna Mergaugey
2337.Rosemary Moore
2338.Derri Morgan
2339.Doris Oberhardt
2340.Marilyn Paduamo
2341.Marguerite Poole
2342.Eilene Raslowsky
2343.Tonia Stacey
2344.Cecelia Varges
2345.Olga Vazquez
2346.Mona Waddell
2347.Debra Waltz
2348.Stella Batten
2349.Retha Biggs
2350.Pauline
Bloodworth
2351.Elma Burbridge
2352.Patricia Burdiss
2353.Shirley Chisler
2354.Dessie
Christopherson
2355.Patricia Cook

2356.Gloria Dickerson
2357.Mary Dotson
2358.Barbara Dumas
2359.Debora Dykes
2360.Mercedes Esparza
2361.Lora Fawkes
2362.Charlotte Hammer
2363.Carol Hardwick
2364.Dorothy Harris
2365.Filomena Heotis
2366.Ida Hodge
2367.Hilda Holland
2368.Barbara Huerena
2369.Debbie Janssen
2370.Margaret McCants
2371.Renice McCowan
2372.Lillie Napier
2373.Dana Nixon
2374.Kathryn North
2375.Barbara Pargament
2376.Inez Presto
2377.Camille Rivers
2378.Marilyn Roberson
2379.Debra Russel
2380.Georgia Sanderson
2381.Theresa Skaggs
2382.Dovie Skinner
2383.Violet Sperry
2384.Margaret Staats
2385.Catterria Tatum
2386.Carol Tjarks
2387.Kristy Tobias
2388.Kim Tucker
2389.Rose Watkins

A-38
2390.Ebtisam Wilkins
2391.Beatrice Wilson
2392.Mary Wimmer
2393.Trudy Alex
2394.Shirley Leasock
2395.Vernell Marisett
2396.Jameelah Shabazz
2397.Delisie Adams
2398.Mary Allen
2399.Patricia Allen
2400.Susan Allison
2401.Sarah Arft
2402.Constance Aroma
2403.Reva Atkins
2404.Diana Auger
2405.Gloria Averett
2406.Christine
Baczynski
2407.Lottie Bagley
2408.Amira Bajric
2409.Carla Banks
2410.Jonelle Barbee
2411.Margaret Beck
2412.Eva Belle
2413.Sandra Benham
2414.Denise Bennett
2415.Hattie Bennett
2416.Linda Bentley
2417.Hertha Berry
2418.Marion Binion
2419.Marsha Blair
2420.Delina
Blankenship
2421.Francis Boose

2422.Kathy Borton
2423.Loretta Broderick
2424.Saundra Brown
2425.Vange Brown
2426.Donna Callaghan
2427.Melvina Landry
2428.Janet Murray
2429.Gloria Myers
2430.Jean Myrup
2431.Royalette Nelson
2432.Uyen Nguyen
2433.Joan
O'Connor-Braun
2434.Belinda O'Neal
2435.Priscilla Overbey
2436.Alecia Palmer
2437.Sharon Parmenter
2438.Adaline Parrish
2439.Mary Patterson
2440.Mary Pearson
2441.Dolores Pekar
2442.James Pickens
2443.Sonya Plessinger
2444.Nancy Poisson
2445.Evelyn Polite
2446.Maribel Ponce
2447.Everlean Cage
2448.Katrenna Casey
2449.Rosalind Clarke
2450.Willie Gardner
2451.Ann Givan
2452.Barbra Grant
2453.Elizabeth Greer
2454.Johilda Harris

A-39
2455.Leola Hawkins
2456.Mary Ann Jones
2457.Toyea Knazze
2458.Juanita Knowles
2459.Rachel Peeples
2460.Gwendolyn Purnell
2461.Faye Stokes
2462.Mary Warren
2463.Leta Watson
2464.Katherine Boyer
2465.Deborah Davis
2466.Virginia Fields
2467.Diane Jeffers
2468.Elizabeth Keene
2469.Rhonda McQueen
2470.Irma Mendoza
2471.Patricia Miller
2472.Nadine Miller
2473.Karen Morgan
2474.Raana Nawaz
2475.Masooda Naz
2476.Carol Nelson
2477.Beverley Parie
2478.Jacqueline
Pendleton
2479.Joan Pfeffer
2480.Kathleen Porter
2481.Raelene Postma
2482.Regina Pyle
2483.Linda Randall
2484.Sharon Renfro
2485.Evelyn Riley
2486.Beverly Ross
2487.Barbara Rubel

2488.Ida Russell
2489.Sue Sandifer
2490.Christina Slater
2491.Viola Smith
2492.Evelyn Stafford
2493.Viola Suceda
2494.Galynda Swoape
2495.Charlita Taylor
2496.Sharon Thorne
2497.Jessie Tisdale
2498.Joann Trippodo
2499.Alice Vela
2500.Judy Washington
2501.Teri Wells
2502.Debra Wesley
2503.Joyce Whittaker
2504.Natalie Willesden
2505.Frances Williams
2506.Marion Constant
2507.Martha Bowser
2508.Ardena Carpenter
2509.Diane Carr
2510.Doris Cheek
2511.Pamela Cheek
2512.Sharon Cheney
2513.Elizabeth
Chepkauskas
2514.Carlyn Claibourn
2515.Lisa Clark
2516.Glenda Clayton
2517.Mae Cochran
2518.Mary Coleman
2519.Debra Collins
2520.Rose Coots

A-40
2521.Gertrude Cornish
2522.Rhonda Couch
2523.Pauline Crawford
2524.Jane Craze
2525.Sheryl Cummings
2526.Celia Cuyler
2527.Helen Davidson
2528.Mary Davidson
2529.Deborah Day
2530.Vertie Dean
2531.Mattie Dennis
2532.Maureen Dennis
2533.Cynthia Dewitt
2534.Nancy Dietrich
2535.Barbara Dorris
2536.Marlene Easterling
2537.Theresa Eckhard
2538.Deborah Edwards
2539.Penelope
Eichelberger
2540.Caryn Eisenberg
2541.Deborah Ellington
2542.Juanita Evans
2543.Lisa Everage-Scott
2544.Carolyn Everidge
2545.Madeleiene Fenner
2546.Dorothy Ferguson
2547.Aileen Fine
2548.Glenda Fletcher
2549.Ana Garcia
2550.Rosalie Gaudiello
2551.Cynthia Short
2552.Carmoletta
Baldock

2553.Bertha Belding
2554.Peggy Best
2555.Clara Brewington
2556.Anna Cardillo
2557.Dawn Chamberlin
2558.Laveria Clark
2559.Clara Cobb
2560.Linda Curry
2561.Frances Davis
2562.Rosalyn Deloatch
2563.Judith Deniso
2564.Diane Ewing
2565.Estelita Gallero
2566.Flo Garlandton
2567.Josephine Harper
2568.Dora Harrison
2569.Shirley Jennings
2570.Barbara
Kieifer-Milenki
2571.Deborah Kulpa
2572.Bobbie Lemos
2573.Lorraine Martin
2574.Bernice McCray
2575.Delia Molina
2576.Donna Pharo
2577.Janina Ramsey
2578.Lynniece Scott
2579.Bernice Smith
2580.Robin Smith
2581.Susan Summers
2582.Lovey Taylor
2583.Maple Travis
2584.Virgina Verrilli
2585.Rhonda Wilber

A-41
2586.Beverly Wilson
2587.Cremaya Wilson
2588.Vothress Young
2589.Jackie Caldwell
2590.Paula Carrick
2591.Fleta Collins
2592.Marilyn Dennis
2593.Betty Dooley
2594.Madeline
Evans-Brown
2595.Katie Farmer
2596.Caroline Franklin
2597.Freda Goff
2598.Deborah Heflin
2599.Rhonda Henson
2600.Polly Herrington
2601.Donna Hesson
2602.Judith Hill
2603.Linda Hoskins
2604.Mary Hughes
2605.Roberta Jackson
2606.Gwen Jefferson
2607.Shirley Jeffries
2608.Sabree Johnson
2609.Peggy Jones
2610.Mary Kloke
2611.Patricia Lee
2612.Joyce Linnville
2613.Debra Looker
2614.Betty Manns
2615.Bernice Marcus
2616.Donna Maxwell
2617.Josephine McCall
2618.Maria McGlothin

2619.Artha Nelson
2620.Agnes Reed
2621.Letitia Richardson
2622.Gloria Robinson
2623.Margie Rogers
2624.Wanda Rubin
2625.Faenza Rudolph
2626.Glenna Salinas
2627.Betty Shepherd
2628.Sally Sherwood
2629.Michelle Spencer
2630.Kim Thomas
2631.Maxine Turner
2632.Vickey Watkins
2633.Ruby Williams
2634.Jean Colletti
2635.Yvonne Ford
2636.Sharon Adams
2637.Diane Beringer duplicative plaintiff
2638.Mary Ann Bracey
2639.Courtney Bragg
2640.Bernice
Broadnax-Jolly
2641.Linda Brown
2642.Rosemary Caringella
2643.Kathleen Evans
2644.Lousetta Foley
2645.Shelia Hughes
2646.Mary Hughes
2647.Laura Ingram
2648.Jacqueline Jones
2649.Tula Jordan
2650.Alma Kozack

A-42
2651.Tina Lester
2652.Debra Ligon
2653.Diane Moon
2654.Evelena
Poole-Johnson
2655.Thelma Price
2656.Rose Rowe
2657.Donna Sestak
2658.Vera Smith
2659.Margaret Thomas
2660.Ruby Vigne
2661.Bertine Walls
2662.Nancy Botner
2663.Inez Briggs
2664.Mary Brown
2665.Linda Fleeger
2666.Edna Haines
2667.Doris Johnson
2668.Lark Lewis
2669.Carolyn Organ
2670.Eida Pack
2671.Jan Reddick
2672.Mary Strange
2673.Delores Antoine
2674.Genre Brogue
2675.Inish Collins
2676.Charlene
Culbreath
2677.Gloria Gonzalez
2678.Tammy Hinshaw
2679.Janet Kelley
2680.Janet Luckett
2681.Mattie Sotelo
2682.Gloria Spivey

2683.Thelma Thomas
2684.D'Audra Thompson
2685.Janet Todd
2686.Linda Washington
2687.Debbie Watts
2688.Latonya Westbrook
2689.Eleanor Whalen
2690.Jancie Wilson
2691.Tracy Witherspoon
2692.Conda Adams
2693.Susie Alcoser
2694.Frances Allen
2695.Suzanne Balknight
2696.Mary Beckett
2697.Lucile Bell
2698.Maria Bickford
2699.Adline Biel
2700.Kathleen
Bornemann
2701.Marily Bounds
2702.Annette
Briggs-Whitsett
2703.Carolyn Cardwell
2704.Deloris Chalmers
2705.Oristine Clark
2706.Gloria Danzwith
2707.Lorretto Diaz
2708.Theresa Eckhard
2709.Bonnie Eggleston
2710.September
Fohrenkam
2711.Maria Garza
2712.Helen Harris
2713.Adelheid Harvey

A-43
2714.Barbara Henson
2715.Shirley Allen
2716.Catherine Burns
2717.Marcela Franklin
2718.Patricia Hall
2719.Mildred Holbert
2720.Rose Isder
2721.Janie Jelks
2722.Annika Kohler
2723.Carolyn Langston
2724.Thelma Neal
2725.Mary Ragan
2726.Nita Toy
2727.Linda Williams
2728.Patricia Banks
2729.Betty Becker
2730.Charlotte Hicks
2731.Diane Young
2732.Reta Manthe
2733.Dorothy Parks
2734.Fannie Peeples
2735.Janice Reeves
2736.Carolyn Ruffin
2737.Linda Siddell
2738.Lynette Spencer
2739.Karen Walters
2740.Alicia Woods
2741.Melba Allums
2742.Erma Audrey
Barco
2743.Marilyn Beth
Benjamin
2744.Joyce Boyd
2745.June Donald Dixon

2746.Judith Ann Duke
2747.Erma Jean Grant
2748.Texanna Gullry
Howard
2749.Jessie Lee King/Hale
2750.Mildred Ann
Maddron
2751.Patricia Ann
Poppinger
2752.Shirley Baker
Rodgers
2753.Maria Jane Sierra
2754.Conseatta L Stewart
2755.Doris Ann Wilson
2756.Pamela Brakhage
2757.Margie Ann Jackson
2758.Carolyn Morris
2759.Patricia Parker
2760.Cheryl Ann Reese
2761.Dorothy Schenck
2762.Sarah Catherine
Stallworth
2763.Diane Irmguard
Williams
2764.Connie D. Williams
2765.Betty J. Wilson
2766.Virginia Robinson
2767.Andrea Buckner
2768.Sandra Cheeseboro
2769.Betty Clay
2770.Zoe Daniel
2771.Wynell Griffin
2772.Virginia Huffman
2773.Ruth Jackson

A-44
2774.Sylvia Johnson
2775.Mary Lasonde
2776.Gertrude Lias
2777.Mary Lowman
2778.Ollie Faye Marcum
2779.Natasha Marshall
2780.Deborah McCloud
2781.Brigitte Milligan
2782.Gloria Mitchell
2783.Deetta Morrison
2784.Cherry Morton
2785.Joanne Nacoste
2786.Betty Omspaush
2787.Debra Rideout
2788.Cynthia Strickland
2789.Virginia Styron
2790.Debra Taylor
2791.Karen West
2792.Vera Wilson
2793.Cathie Anderson
2794.Idndir Balraj
2795.Corrinne
Behrenbrinker
2796.Sharon Brown
2797.Cora Brown
2798.Annie Brumfield
2799.Vickie Carl
2800.Helene Davis
2801.Lisa Esquivel
2802.Thelma Evans
2803.Dondie Gordon
2804.Mable Hickman
2805.Barbara Ivey
2806.Patricia Johnson

2807.Gertrude Johnson
2808.Sharon Jones
2809.Yolanda Lai-Fook
2810.Terrell Lewis-Bey
2811.Guillermina
Martinez
2812.Rachel Montoya
2813.Brenda Perkins
2814.Sonya Spencer
2815.Shirley Spurlock
2816.Ella Tilley
2817.Goldie Walker
2818.Dawn Wells
2819.Leatrice West
2820.Elaine Wilson
2821.Judy Anderson
2822.Kathy Breaux
2823.Lawanna Faulkner
2824.Elizabeth Gonsoulin
2825.Denise Jones
2826.Rosetti Rhodes
2827.Marilyn A Rome
2828.Marilyn A
Seeber-Scisco
2829.Doris Shrader
2830.Virgie Simmons
2831.Donna Strunk
2832.Cheryl Webster
2833.Karen Yandle
2834.Gerladine Birch
2835.Minzetta Borden
2836.Mary Bradshaw
2837.Mildred Brown
2838.Brenda Bryant

A-45
2839.Tanya Carter
2840.Gloria Cooper
2841.Josett Cottman
2842.Ada Cruz
2843.Sonya Dennis
2844.Annie Douglas
2845.Anna Evans
2846.Loretta Foster
2847.Mildred Foster
2848.Sandra Gibbeny
2849.Beatrice Johnson
2850.Onita Johnson
2851.Cydene Joiner
2852.Lynda Matthys
2853.Jessie Powell
2854.Sybil Reed
2855.Yvonne Rice
2856.Fannie Stevenson
2857.Alice Tyson
2858.Sara Urbina
2859.Melba Vanderwyk
2860.Donna Washington
2861.Rose Hodges
2862.Sandra Cavey
2863.Aline Chatman
2864.Mattie Clark
2865.Yolanda Cornelious
2866.Carolyn Cummins
2867.Rebecca Davis
2868.Gina Dockery
2869.Jaqueline Funk
2870.Wanda Galloway
2871.Mary Gore
2872.Shirley Hardmon

2873.Teresa Hatcher
2874.Marsha Jenkins
2875.Dorothy Jones
2876.Cynthia Lutin
2877.Susan Lyndsley
2878.Cheryl McPherson
2879.Laura Millwood
2880.Myra Parsons
2881.Margaret Perkins
2882.Patricia Phillips
2883.Anna Powell
2884.Glenda Reid
2885.Waltraud Risley
2886.Marie Rutledge
2887.Clara Seay
2888.Nancy Smith
2889.Lucynda Smith
2890.Barbara Steele
2891.Barbara Ulmer
2892.Carolyn Whatley
2893.Hortense Abtiow
2894.Maggie
Anderson-Yoakum
2895.Bunnie Ault
2896.Catherine Bodley
2897.Frances Boula
2898.Josephine Bristow
2899.Ethel Chisum
2900.Peggy Clark
2901.Cathy Collins
2902.Kim Darsee
2903.Dedra Davis
2904.Mary Decker

A-46
2905.Sunantha
Dharmasaroja
2906.Deborah Gibson
2907.Antoinette Grimes
2908.Gladys Holland
2909.Catherine
Kremenik
2910.Patricia Mays
2911.Joyce McEwen
2912.Clara McIntosh
2913.Audrey McKinney
2914.Rosa McLean
2915.Karen McMillian
2916.Sandra Mekus
2917.Ruth Norris
2918.Carol Peebles
2919.Leslie Post
2920.Linda Rainey
2921.Verbia Ryan
2922.Lula Scott
2923.Ermia Thompson
2924.Linda Ainsworth
2925.Ramona Applegate
2926.Linda Brewer
2927.Margaret Bruno
2928.Marian Chromcak
2929.Ethel Collins
2930.Sandra Colombo
2931.Myrtie Crews
2932.Earnestine De La
Rosa
2933.Shirley Dickerson
2934.Rose Duncan
2935.Pamela Ford

2936.Mary Furness
2937.Gwendolyn Garner
2938.Vicki Gates
2939.Tracy George
2940.Dianna Goodling
2941.Donna Hardin
2942.Barbara Hoerner
2943.Patricia Holland
2944.Nancy Lisitza
2945.Cerenia Littles
2946.Kathryn Marion
2947.Andrea McKee
2948.Margaret M Moore
2949.Diann Moore
2950.Sonia Morgan
2951.Tammy Parker
2952.Lennie
Pfaffenhauser
2953.Jane Remer
2954.Stella Reynolds
2955.Carmen Samuels
2956.Denova Self
2957.Patricia Stevens
2958.Estela Tucker
2959.Claudia Turner
2960.Sandra Blackwell
2961.Barbara Campbell
2962.Joanne Carter
2963.Mary DeRossett
2964.Cindy Giles
2965.Julia Hall
2966.Juliet Lucas
2967.Janet Odom
2968.Imogene Renner

A-47
2969.Johnnie Mae
Dorsey
2970.Penny Franklin
2971.Wanda Frasier
2972.Marietta Haugh
2973.Vera Hayes
2974.Betty Hoyt
2975.Sandra Hunter
2976.Felcia Landon
2977.Patricia Madden
2978.Barbara Marshall
2979.Emily Matthews
2980.Marietta Moore
2981.Mary
Nye-Matthews
2982.Rosie Owens
2983.Florine Rodgers
2984.Terrie Simmons
2985.Charlotte Smith
2986.Gloria Smith
2987.Judith Smith
2988.Vonda Sterling
2989.Julia Sterling
2990.Vinita Stewart
2991.Deborah Taylor
2992.Yolanda Walker
2993.Gloria Williamson
2994.Mary Bradley
2995.Bonnie Burns
2996.Eva Coddington
2997.Elizabeth Dingle
2998.Marie Gahr
2999.Joan Gallegly
3000.Maureen George

3001.Florence Gillis
3002.Kim Grimm
3003.Teresa Gunby
3004.Pattricia Hall
3005.Anita Hallmark
3006.Anita Hatcher
3007.Collen Jenkins
3008.Patti Kahl
3009.Kimberley Kenedy
3010.Sharon Knoepfler
3011.Alice Lundstrom
3012.Ethel Marcus
3013.Carol Mayfield
3014.Joann McCauley
3015.Khatereh Moldovan
3016.Terry Newcomb
3017.Marilyn O'neal
3018.Linda Roberts
3019.Merline Sandvand
3020.Ina Spencer
3021.Becky Thomas
3022.Maria Thomas-Lee
3023.Linda Thompson
3024.Dorothy Thompson
3025.Laura Walker
3026.Judith Weltman
3027.Ruth West
3028.Sherry Williamson
3029.Linda Woodward
3030.Teresa Wright
3031.Dovie Abshire
3032.Arlene Beard
3033.Ripple Belk
3034.Sandra Bush

A-48
3035.Linda Cole
3036.Mary Debock
3037.Connie Douglas
3038.Alberta Finlay
3039.Patricia Fritz
3040.Elizabeth Fulmore
3041.Leona Grierson
3042.Emma Guarr
3043.Sheldon Harris
3044.Patricia Harvey
3045.Wanda Headrick
3046.Terri Hillard
3047.Eva Hollowell
3048.Joann Jones
3049.Janis Judd
3050.Elizabeth Kwiatek
3051.Linda Layade
3052.Alicia Martinez
3053.Delaphine Miller
3054.Allie Moore
3055.Betty Moss
3056.Betty Orris
3057.Carolyn Ray
3058.Marjorie Tobin
3059.Charlotte Vasseur
3060.Roberta Williams
3061.Karen Boggs
3062.Shirley Farthing
3063.Brenda Hankins
3064.Mary Lyles
3065.Mary Ann Maxwell
3066.Yurris McClendon
3067.Lola Miller
3068.Patricia Ann Moore

3069.Miriam M Myers
3070.Verna Lea Nash
3071.Alice Parks
3072.Bonnie Paul
3073.Patricia Russell
3074.Barbara Talbert
3075.Evelyn Thomas
3076.Donna Addy
3077.Carolyn Allen
3078.Norma Aponte
3079.Jacqueline Bass
3080.Judy Bellamy
3081.Linda Bradford
3082.Julia Canty
3083.Helen Clark
3084.Brenda Clontz
3085.Velma Coffman
3086.Erma Cook
3087.Nancy Curtis
3088.Betty Davis
3089.Velma Gates
3090.Huda Gatia
3091.Denise Gauthier
3092.Sondra Goins
3093.Ana Gomez
3094.Ida Gray
3095.Rebecca Guajardo
3096.Diana Guthrie
3097.Lita Haman
3098.Connie Hannon
3099.Patricia Herrera
3100.Carmel Hopkins
3101.Cathy Jarreau
3102.Angela Johnson

A-49
3103.Shirley Jones
3104.Priscilla Jones
3105.Francine Jones
3106.Carolyn
Jones-Hedgepeth
3107.Debra Lawrence
3108.Janet Mason
3109.Patricia Moseley
3110.Hannah Mossberg
3111.Sarah Murray
3112.Marsha Nolan
3113.Cathy Owens
3114.Evan Pagan
3115.Harriet Penney
3116.Bonnie Pruitt
3117.Marisol Ramos
3118.Kathleen Register
3119.Pauline Reincke
3120.Donna Rhyneer
3121.Melba Richardson
3122.Milgros Robles
3123.Wilma Rockingham
3124.Carmen Romero
3125.Paula Savage
3126.Rhonda Shields
3127.Sandra Sibley
3128.Kathy Slaton
3129.Nadine Smith
3130.Sharon Spivey
3131.Linda Stevens
3132.Darlene Stewart
3133.Brenda Taylor
3134.Loretta Teanggeow
3135.Judy Thurmond

3136.Deborah
Tindle-Matthews
3137.Alice Treadway
3138.Lillie Vaughn
3139.Mildred Welch
3140.Carrie Widby
3141.Susan Williams
3142.Cathy Wingo
3143.Shirley Adams
3144.Linda Jackson
Ambrose
3145.Mary Dellise
Beckham
3146.Carolyn Elaine
Bluitt
3147.Sharon Lee Camp
3148.Mary Ann Glispy
3149.Diane Lynn Hayden
3150.Alleen C Krewatch
3151.Marian Jo Mayle
3152.Gayle Cherry
Meadors
3153.Jane Ann Paige
3154.Emma Jean Player
3155.Nancy Rae Pullam
3156.Janet Elaine Ranfeld
3157.Alta Will Reives
3158.Vicki Lee Ring
3159.Ganelle Dennis
Roberts
3160.Brenda Sue Rohn
3161.Donna M Shertzer
3162.Myrna Jean Sullivan

A-50
3163.Manuela Alicia
Trevizo
3164.Sharon Lynn Webb
3165.Annie Harris
Willrich
3166.Dorothy A
Zibkowski
3167.Beatrice Aviles
3168.Vicki Beckett
3169.Bonnie Good
3170.Alvera Phillips
3171.Barbara Pratt
3172.Lynn Ream
3173.Patricia Slowley
3174.Mary Stephens
3175.Ruth M Valentine
3176.Alberta Williams
3177.Deborah Ann Cross
3178.Emma J. Larry
3179.Janice M. Sterling
3180.Cynthia L. Wong
3181.Kelly Foster
3182.Connie French
3183.Frances Summers
3184.Frances Talbert
3185.Angela Tartt
3186.Arlene Taylor
3187.Darlene Taylor
3188.Gloria Taylor
3189.Leonor Teixeira
3190.Christuine Thomas
3191.Valerie Thomas
3192.Donna Thompson
3193.Sarah Thornburg

3194.Charlesa Thornton
3195.Judy Trujilo
3196.Marisol Tutt
3197.Tanya Upshaw
3198.Diana Valdez
3199.Deborah Vance
3200.Stacey Vanloozen
3201.Carol Vaughn
3202.Frances Verner
3203.Bessie Vernon
3204.Rachel Videau
3205.Cindy Wages
3206.Shirley Wallace
3207.Joanetta
Waller-Davis
3208.Mary Wann
3209.Sandra Washington
3210.Judith Watson
3211.Benitta Wesco
3212.Gloria Wesley
3213.Barbara Wiley
3214.Sonjia Wiliams
3215.Maudrena Williams
3216.Peggy Williams
3217.Anita Williamson
3218.Marcia Williamson
3219.Maureen Williamson
3220.Evelyn Wills
3221.Donna Witek
3222.Martha Womack
3223.Lucretia Woodburn
3224.Rosalie Yokel
3225.Ruth Zimmerman
3226.Tammy Clayton

A-51
3227.Cheryl A Dafford
3228.Katrina Fulmore
3229.Jane E Goss
3230.Sue N Hammock
3231.Sandra Kennedy
3232.Elizabeth Miller
3233.Joan A Pitts
3234.Patricia A Rattay
3235.Celina K Sutton
3236.Lottie Tucker
3237.Anna L Walker
3238.Judy C Weeks
3239.Helen E Wells
3240.Daisy Macon
3241.Princess Mannie
3242.Dorothy Mathis
3243.Alberta
McCullough
3244.Cynthia McDonald
3245.Deborah Mcelwain
3246.Nettrea McGee
3247.Stephanie McGrew
3248.Lillie McKellar
3249.Pamella McKinnon
3250.Judy McKnight
3251.Rosemarie
McMaster
3252.Georgia Michael
3253.Annie Middleton
3254.Susan Mika
3255.Jane Miller
3256.Janet Miller
3257.Linda Miller
3258.Patricia Miller

3259.Dannie Mitchell
3260.Lucy Modery
3261.Mary Mohammad
3262.Janet Moody
3263.Phyllis Moody
3264.Florence Moore
3265.Irma Moore
3266.Mary Moore
3267.Vira Morgan
3268.Cynthia Morris
3269.Frances Mott
3270.Katherine Musolf
3271.Clarice Nash
3272.Delphine Newsome
3273.Mattie Newton
3274.Joanne
Nordenstrom-Buck
3275.Cheryl
Normandin-Hill
3276.Virginia O'Banion
3277.Deanna Olsen
3278.Innis Osborne
3279.Celia Pasqua
3280.Theodora Pellini
3281.Marceita Penick
3282.Maria Perez
3283.Karen Perkins
3284.Sue Phillips
3285.Rosalyn Pierce
3286.Cristina Pimentel
3287.Teresa Portlock
3288.Virginia Postle
3289.Marlene Proulx
3290.Paula Blue

A-52
3291.Tammy Brooks
3292.Flora Burnett
3293.Alberta Carleton
3294.Margaret Daniels
3295.Denise Elliott
3296.Naomi Ellison
3297.Alta Freeman
3298.Susan Gerry
3299.Tabathy Guillot
3300.Marion Hanson
3301.Barbara Harvey
3302.Debbie Hash
3303.Clara Hazelton
3304.Wanda Hull
3305.Evalina Johnson
3306.Renee Jones
3307.Constance Kenny
3308.Beverly King
3309.Lula Ann Lee
3310.Josephine Leonard
3311.Violet Lofton
3312.Linda Massarelli
3313.Delores McGee
3314.Grace Miller
3315.Virgie Morgan
3316.Kathleen Morgan
3317.Golden Morgan
3318.Pattie Pearce
3319.Nova Rachal
3320.Linda Reeves
3321.Judy Smarch
3322.Barbara Smith
3323.Virginia Spaulding
3324.Suzanne Stephens

3325.Angela Vanzandt
3326.Victoria Vaughan
3327.Rosetta Walker
3328.Ruby White
3329.Kathy Wigginton
3330.Evelyn Williams
3331.Joan Anteau
3332.Kathy Banks
3333.Deborah Bartley
3334.Roberta Black
3335.Bettye Bradley
3336.Linda Britton
3337.Jill Brunswon
3338.Margaret Campbell
3339.Sharon Cleveland
3340.Jacquelyn Coogler
3341.Connie Franklin
3342.Sandra Gaines
3343.Betty Gibson
3344.Letitia Griffin
3345.Mary Halbert
3346.Robbie Halmon
3347.Donna Howard
3348.Ida Jackson
3349.Nancy Jacobs
3350.Donna Keller
3351.Jo Ann Laslea
3352.Jeanette Lymas
3353.Brenda McClinton
3354.Cathy McGhee
3355.Easter Miller
3356.Gloria Moore
3357.Warrine Moore
3358.Wille Neal

A-53
3359.Glenda Pettigrew
3360.Juanita Smith
3361.Betty Watkins
3362.Annie Williams
3363.Sue Ashley
3364.Diana Berry
3365.Francelle Brandon
3366.Helen DeLauder
3367.Ruth Doyle
3368.Tomader Ezzeldin
3369.Vickie Faye
3370.Fannie Harris
3371.Kathy Hayes
3372.Linda Jacobson
3373.Claretha Jess
3374.Maria Keffe
3375.Mary Lee
3376.Wanda Machalek
3377.Regina Madison
3378.Lynda Marie
3379.Mary Maxwell
3380.Janice Moore
3381.Carol Nichols
3382.Debra Peoples
3383.Clarice Reynolds
3384.Ella Robinson
3385.Dorothy Seawright
3386.Edna Stafford
3387.Lora Womack
3388.Gayle Jewell
3389.Juanita Reed
3390.Virginia
Wodkowski
3391.Linda Bond

3392.Sandra Fish
3393.Ruth Jacobs
3394.Judy Pantall
3395.Mildred Walker
3396.Doreen Gideon
3397.Rhonda Lovett
3398.Cathie Anderson
3399.Deloris Bridges
3400.Glee Bright
3401.Annie Brumfield
3402.Mildred
Chamberlain
3403.Lillian Clark
3404.Dorothy Cole
3405.Myrtle Culpepper
3406.Charlotte Dailey
3407.Gloria De Rogatis
3408.Lisa Esquivel
3409.Debra Furney
3410.Rose Garrity
3411.Wanda George
3412.Claryce Gibbons
3413.Delorse Gunter
3414.Mable Hickman
3415.Vicki Hines
3416.Marie Johnson
3417.Karen Kerley
3418.Demetria McCuiston
3419.Patricia Rodriguez
3420.Josephine Sam
3421.Bertie Smith
3422.Margaret Snyder
3423.Amy Spence
3424.Carol Stier

A-54
3425.Dianne Watkins
3426.Leatrice West
3427.Jewel Williams
3428.Lavetta Brown
3429.Roberta Decker
3430.Theresa Delaney
3431.Patricia Furst
3432.Carol Garlick
3433.Myrtle Gayler
3434.Barbara Gillis
3435.Daphne Graham
3436.Belinda Graham
3437.Naydean Hamilton
3438.Donna Hill
3439.Lola Hook
3440.Linda Hoover
3441.Wanda Imhoff
3442.Olivia Jones
3443.Sylvia McCauley
3444.Rebecca Moore
3445.Avis Nix
3446.Thelma Osborn
3447.Kimberly Puente
3448.Marta
Schoemberger
3449.Mary Schutz
3450.Melanie Smith
3451.Marilyn Smith
3452.Karla Stofflet
3453.Karen Tassone
3454.Marion Turner
3455.Ada Vaughn
3456.Cynthia Woodrick
3457.Roseann Avena

3458.Lillie Bates
3459.Margaret Berry
3460.Iris Brown
3461.Linda Buckley
3462.Marianne Campbell
3463.Teresa Carden
3464.Lucy Carter
3465.Mary Clinton
3466.Opal Collier
3467.Suzanne
Donnelly-Yingling
3468.Angela Douglas
3469.Annie Evans
3470.Marilyn Ewing
3471.Vonda Floyd
3472.Bonnie Frazier
3473.Darlene Frick
3474.Katherine Hall
3475.Mary Harrell
3476.Linda Harrelson
3477.Wanda Harris
3478.Wendell Harrison
3479.Viola Hawkins
3480.Flora Hunter
3481.Rosie Jackson
3482.Denise Kelly
3483.Linda Kinney
3484.Lovie Mae Lamar
3485.La'Shawnda Lee
3486.Brenda Leopold
3487.Carmen Marchese
3488.Marcia McCullough
3489.Sarah Moody
3490.Jacqueline Mullkin

A-55
3491.Stella Oullette
3492.Deborah
Richardson
3493.Frances Sanford
3494.Billie Scheets
3495.Dana Shilling
3496.Ellen Slaney
3497.Mattie Spencer
3498.Cheryl Spitzer
3499.Roxanne Stampley
3500.Bernice Stuphen
3501.Debra Tift
3502.Danna Tucker
3503.Shelly Alexander
3504.Lucy Allen
3505.Diane Babcock
3506.Lorene Boswell
3507.Mary Butler
3508.Annie Campbell
3509.Dorothy Campbell
3510.Doris Collins
3511.Darleen Diebold
3512.Vivian Ditkowich
3513.Barbara Fuccille
3514.Marta Gaines
3515.Judith Harris
3516.Nancy Harris
3517.Sharon Harvey
3518.Lydia Hebert
3519.Deborah Holloway
3520.Dolores Jaszczak
3521.Kimberly Kemp
3522.Wanda King
3523.Della Klumpp

3524.Tatina Kyles
3525.Sally Lamorgese
3526.Dessie March
3527.Valerie McLaughlin
3528.Ada Modica
3529.Carolyn
Phelps-Munson
3530.Effie Ponce
3531.Mavis Prisco
3532.Rosalie Simeti
3533.Laurie Sydow
3534.Altha Taylor
3535.Constance Taylor
3536.Donna Willis
3537.Nora Demay
3538.Marcia Goodman
3539.Deborah Harrington
3540.Geneva Holmes
3541.Deborah Keutzer
3542.Jeanette McDonald
3543.Maureen McGuire
3544.Ruby Muench
3545.Yvonne Tolman
3546.Constance Wise
3547.Helen Bragg
3548.Jerry Brelish
3549.Mamie Coleman
3550.Willie Collins
3551.Donna Duval
3552.Denise Dye
3553.Lori Giannotti
3554.Evelyn Hardin
3555.Shirley Holland
3556.Ella Holyfield

A-56
3557.Sylvia Majanja
3558.Ruth Mothershed
3559.Phyllis Perkins
3560.Wanda Pryor-Jones
3561.Madine Randolph
3562.Linda Staats
3563.Sonia Tucker
3564.Janice Warren
3565.Barbara Brice
3566.Evelyn Carlson
3567.Sharon Grose
3568.Bonnie James
3569.Pearl Jones
3570.Terri LaGrippo
3571.Patricia Moore
3572.Mary Mugan
3573.Norma Muraviov
3574.Karen Nicholson
3575.Betty Page
3576.Mary Starling
3577.Helen Taylor
3578.Sandra Tysor
3579.Peggy Vail
3580.Valerie Van Zile
3581.Barbara Warfield
3582.Janet Anderson
3583.Loretta Anthony
3584.Hillary Aylward
3585.Bonnie Dunlap
3586.Dorothy Eldridge
3587.Marion Epps
3588.Jackline Isaacs
3589.Marilyn Robinson
3590.Lisa Vowels

3591.Wanda Bingham
3592.Ada Brooks
3593.Elizabeth Brown
3594.Jacqueline Bryant
3595.Jamie Campbell
3596.Joyce Clark
3597.Nona Cleaver
3598.Felicia Colbert
3599.Betty Coon
3600.Brenda Daniels
3601.Ruth Decker
3602.Margaret Dukes
3603.Oda Fay Fugate
3604.Lavera George
3605.Martha Granado
3606.Karen Guthrie
3607.Rita Habegger
3608.Dorothy Higgs
3609.Patsy Hines
3610.Jeannette Holtz
3611.Lois Laboy
3612.Mitchelle Little
3613.Rachel McDonald
3614.Judy McKenna
3615.Teresa Miller
3616.Tona Moore
3617.Donna Patch
3618.Ethel Salisbury
3619.Lori Schnarr
3620.Kathy Smith
3621.Cynthia Taylor
3622.Elizabeth Vanover
3623.Mary Wehner

